<html>
<title> - REPORT OF THE COMMISSION ON THE ADVANCEMENT OF FEDERAL LAW ENFORCEMENT</title>
<body><pre>[Senate Hearing 106-1049]
[From the U.S. Government Printing Office]




                                                       S. Hrg. 106-1049

 REPORT OF THE COMMISSION ON THE ADVANCEMENT OF FEDERAL LAW ENFORCEMENT

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION


                               __________

                            FEBRUARY 3, 2000

                               __________

                          Serial No. J-106-63

                               __________

         Printed for the use of the Committee on the Judiciary




                    U.S. GOVERNMENT PRINTING OFFICE
72-524 DTP                  WASHINGTON :  2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
 Internet: bookstore.GPO.gov Phone: (202) 512-1800 Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman
MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont
                     Garry Malphrus, Chief Counsel
                    Glen Shor, Legislative Assistant




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Thurmond, Hon. Strom, U.S. Senator from the State of South 
  Carolina.......................................................     1
Schumer, Hon. Charles E., U.S. Senator from the State of New York     3
Sessions, Hon. Jeff, U.S. Senator form the State of Alabama......     5

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Hon. William H. Webster, Former Director, 
  Federal Bureau of Investigation, and Chairman, Commission on 
  the Advancement of Federal Law Enforcement; Donald C. Dahlin, 
  Professor, Department of Political Science, University of South 
  Dakota, and Member, Commission on the Advancement of Federal 
  Law Enforcement; Robert M. Stewart, Chief, State Law 
  Enforcement Division, State of South Carolina, and Member, 
  Commission of the Advancement of Federal Law Enforcement; 
  Gilbert G. Gallegos, National President, Fraternal Order of 
  Police, and Member, Commission on the Advancement of Federal 
  Law Enforcement; and Robert E. Sanders, Former Assistant 
  Director of Criminal Investigations, Bureau of Alcohol, Tobacco 
  and Firearms, and Member, Commission on the Advancement of 
  Federal Law Enforcement........................................     7

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Dahlin, Donald C.:
    Prepared Statement...........................................    10
Gallegos, Gilbert G.:
    Prepared Statement...........................................    15
Sanders, Robert E.:
    Prepared Statement...........................................    16
Stewart, Robert M.:
    Prepared Statement...........................................    12
Webster, William H.:
    Prepared Statement...........................................     7





                                APPENDIX
                         Questions and Answers

Responses of the Commission to Questions from Senator Leahy......    39

                 Additional Submissions for the Record

Hatch, Hon. Orrin, U.S. Senator from the State of Utah, prepared 
  statement......................................................    35
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont, 
  prepared statement.............................................    35
Commission on the Advancement of Federal Law Enforcement, article    49
President's Council on Integrity and Efficiency, letter and 
  attachments....................................................    62

 
 REPORT OF THE COMMISSION ON THE ADVANCEMENT OF FEDERAL LAW ENFORCEMENT

                              ----------                              - 
- -


                       THURSDAY, FEBRUARY 3, 2000

                               U.S. Senate,
        Subcommittee on Criminal Justice Oversight,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Strom 
Thurmond (chairman of the subcommittee) presiding.
    Also present: Senators Sessions and Schumer.

 OPENING STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Senator Thurmond. The subcommittee will come to order.
    I am pleased to hold this hearing today regarding the 
report of the Commission for the Advancement of Federal Law 
Enforcement.
    The Commission was created as part of the Antiterrorism and 
Effective Death Penalty Act to take a hard look at Federal law 
enforcement and see how it could be improved at the dawn of the 
new century. The Commission was given a broad mandate to review 
all aspects of law enforcement, from interagency duplication 
and coordination to the threat of terrorism.
    Generally, the Congress reacts to crime on an ad hoc basis, 
responding to the crisis of the moment. We created this 
Commission to stand back and take a broad perspective and a 
comprehensive examination.
    We appointed a fine, respected group of Commissioners to 
undertake this daunting task. Some have experience in Federal 
law enforcement agencies, including the FBI and ATF. Others 
have experience fighting crime on the State and local level.
    Their hard work for the past 2 years has resulted in a 220-
page report entitled ``Law Enforcement in a New Century and a 
Changing World.'' We are here today to discuss their findings 
and recommendations. Some are bold and thought-provoking, while 
others are just common sense. The Congress and the 
Administration should carefully examine these recommendations.
    The Report challenges Federal law enforcement to better 
prepare for the increasing threat of terrorism and computer-
related crime. At the same time, we must make certain that all 
financial and white collar crime is a top priority for the New 
Century. After all, money is the motive for most crime. We must 
make certain that any effort to increase the Attorney General's 
authority does not reduce the importance of other law 
enforcement missions.
    Also, the Report found that Federal law enforcement differs 
considerably in its recruitment, training, and even policies. 
Further, some of the more far-reaching suggestions, such as 
merging the DEA and ATF enforcement into the FBI, have been 
made before, and concerns were raised at that time. I have some 
personal reservations about this approach, but will certainly 
keep an open mind.
    The Report also has reached some encouraging results, 
including that Federal officers are dedicated professionals and 
that the American public is not fundamentally distrustful of 
law enforcement.
    I have always believed that the American people have the 
right to expect that the Federal Government's resources are 
used in the most efficient way possible in fighting crime. We 
should make every effort to limit duplication and turf battles, 
and promote open lines of communication and a cooperative 
spirit. Moreover, we should also expect Federal law enforcement 
to cooperate with State and local law enforcement. There is 
more than enough crime to go around.
    At the same time, we must recognize that we expect more 
from Federal law enforcement than ever before. Its size, 
jurisdiction, and responsibilities continue to grow. Some 
growth is justified, such as the expanded role of the FBI to 
fight counterterrorism. Some is less justified, such as the 
federalization of many, many crimes. Indeed, when we have 
reviewed Federal prosecutions in this Administration under 
various criminal laws, we have seen that many of these Federal 
crimes are simply not prosecuted on the Federal level.
    I appreciate the Commissioners taking the time to be with 
us today to discuss their report and I look forward to their 
testimony.
    Our first witness today is the Honorable William H. 
Webster, the Chairman of the Commission. Judge Webster served 
as U.S. Attorney in the Eastern District of Missouri before 
becoming a Federal judge for the Eastern District of Missouri 
and the U.S. Court of Appeals for the Eighth Circuit. Judge 
Webster resigned from the bench to become Director of the 
Federal Bureau of Investigation, and later became Director of 
the Central Intelligence Agency. Judge Webster received a 
bachelor's degree from Amherst College and a juris doctor 
degree from Washington University Law School. In 1991, he was 
awarded the Presidential Medal of Freedom.
    Our second witness is Robert M. Stewart, Chief of the South 
Carolina Law Enforcement Division. He started his law 
enforcement career at age 17 as a cadet with the Cheraw Police 
Department. He joined SLED in 1975, was promoted to Deputy 
Director in 1987, and became Chief of SLED in 1988. Chief 
Stewart has a bachelor's degree and a master's degree in public 
administration from the University of South Carolina and is a 
graduate of the FBI National Academy. We are especially pleased 
to have him with us. His lovely wife, Nicoletta, is in the 
audience and we welcome her.
    Our third witness is Professor Donald C. Dahlin, Vice 
President for Academic Affairs at the University of South 
Dakota. Professor Dahlin received his bachelor's degree from 
Carroll College, in Wisconsin, and his Ph.D. from Claremont 
Graduate School in California. He has written extensively on 
criminal justice and police science.
    Our fourth witness is Gilbert Gallegos, National President 
of the Fraternal Order of Police, which is the largest law 
enforcement labor organization in the United States. Mr. 
Gallegos has a degree in criminology from the University of 
Albuquerque and is a graduate of the FBI National Academy. 
Prior to becoming FOP National President, he served for 25 
years in the Albuquerque Police Department, retiring with the 
rank of Deputy Chief of Police.
    Our final witness is Robert E. Sanders, an attorney and 
retired agent with the Bureau of Alcohol, Tobacco and Firearms. 
While with the ATF, Mr. Sanders served as Special Agent in 
Charge of Chicago Regional Investigations and as Assistant 
Director for Criminal Investigations. Mr. Sanders is a graduate 
of the University of Miami and holds a juris doctor from the 
Northern Illinois School of Law.
    I ask that the witnesses please limit your opening 
statements to no more than 5 minutes, and we will start with 
Judge Webster and proceed down the line.
    I will now turn to our ranking member, Senator Schumer, for 
his opening remarks.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman, and I very much 
appreciate your leadership on this committee and your holding 
this important hearing. I also want to thank the Commission for 
its hard work and its report, and thank you, Commissioners, for 
being here today to help let us know of your work.
    I have had an opportunity to quickly read through the 
report, and I also saw some coverage of the report in the 
newspapers. Some of the recommendations, for example, to 
combine ATF with DEA and have both report to DOJ, are not 
necessarily new. Some are very new, and all deserve careful 
consideration, coming from such careful study and such a 
distinguished group.
    I would like to just make a few points about this report 
and its recommendations. First, over the past 7 years the 
murder rate in America is down, the burglary rate is down, the 
auto theft rate is down, the number of rapes are down, the 
number of violent assaults are down, gun crime is down, and the 
juvenile crime rate is down. And, may I add, the rates are not 
just down; they are thankfully precipitously down. Crime has 
plummeted in every region of the country; it has plummeted in 
every State in the country, and crime is down in every large 
city in the country.
    So my first point is that these crime trends do not 
indicate a need, in my judgment, for major restructuring of law 
enforcement. I am not saying that we should rest on our laurels 
or that there is no room for improvement, but I do believe that 
the plummeting crime rate indicates that structurally law 
enforcement is doing quite well.
    My second point is about the ATF. I think the ATF is the 
most maligned Federal law enforcement operation in the country. 
They are in the cross-hairs of the NRA and in the cross-hairs 
of some of the most extreme people in America. If you want to 
point a finger about why we are not able to reduce gun violence 
further, I would not point the finger at the ATF. I would point 
to some of the rules that this Congress and ones before it put 
in that tie the hands of the ATF; for instance, the law that we 
wrote that made it nearly impossible for the ATF to crack down 
on illegal gun-runners or on illicit federally-licensed gun 
dealers. And we make it even extremely difficult to trace a gun 
once it is recovered in a crime. Those aren't the rules of the 
ATF. Those are rules that were passed in this or previous 
Congresses.
    Example: the ATF is allowed only one unannounced visit to a 
federally-licensed firearms dealer each year. So conducting a 
sting operation on a gun dealer whom we may believe is 
violating the law and intentionally supplying guns to criminals 
is out of the question. Can you imagine if we did the same with 
other law enforcement agencies, that the FBI or a local police 
department could only do one unauthorized visit to a potential 
crime site a year? We would be scratching our heads in 
amazement, and yet the law says that about the ATF and FFL's.
    How about this: the penalty for illegally selling guns on 
the black market is mild in comparison to selling drugs, so law 
enforcement has little incentive to go after gun-runners. 
Because the penalty is so mild, they are back doing it again.
    And because of the McClure-Volkmer Act of 1986, gun traces 
rely on technology that was literally developed in the 19th 
century, namely telephone and paper records. That is why half 
of the gun trace attempts come up empty, can't use computers. 
Can you imagine another portion of America or law enforcement 
saying you can't use--we would put in a law saying you can't 
use computers? Yet, we do it here. The number of ATF agents has 
basically remained static since 1980. So even if our laws were 
more reasonable, the number of field agents to keep an eye on 
104,000 licensed gun dealers alone is insufficient.
    So in the place, I guess, where I am reserving most of my 
fire, I think the restructuring of ATF is a little 
bitmisplaced, at least as long as these laws are on the books. And I 
would say once again, Mr. Chairman, that we could make even a bigger 
dent in gun crime if we simply allowed the ATF to conduct stings, 
allocate more field agents, and make gun-running a more serious crime 
with stiffer penalties. I don't see how anyone could oppose this.
    And I am not talking about licensing or closing the gun 
show loophole or banning Internet gun sales. These are measures 
that I support, but these are for the political debate in the 
Congress. I am sure there will be quite a bit of disagreement 
on some of those measures. I am talking about measures that 
give law enforcement a reasonable chance at stopping illegal 
gun trafficking in a way that would have no impact on anyone 
who by law has the right to own or buy a gun.
    Finally, I want to commend the Commission for its strong 
focus on the problem of cyber terrorism and cyber crime. 
Cyberspace really is a new frontier of criminal activity and 
therefore of fighting crime. Unfortunately, I am starting to 
sense some legislative stasis on this issue in Congress. We are 
talking a lot about the program and studying its magnitude and 
potential repercussions, but for the moment at least we are not 
doing what we should do legislatively.
    There are things we can do. For one thing, our criminal 
procedure laws are not well adapted to deal with computer 
crime. We can tweak those laws to facilitate the apprehension 
and prosecution of computer terrorists. I think such 
legislation would clearly be bipartisan and I hope it is 
something we can get done this year.
    Once again, Mr. Chairman, I want to thank you for your 
leadership and for having this hearing. I thank the 
commissioners for their hard work and for being here for the 
report. I will be submitting my questions to the panel so they 
can answer later in writing.
    Thank you, Mr. Chairman.
    Senator Thurmond. Thank you, Senator Schumer.
    The able Senator from Alabama, Senator Sessions, do you 
have an opening statement?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Well, thank you, Mr. Chairman. I was a 
little behind the curve on this report and I saw that there is 
mention or thought of merging the BATF and the FBI. And I 
remember when I was U.S. attorney and I thought it might be a 
good idea to merge the DEA and the ATF, and I wrote then 
Associate Attorney General Rudy Giuliani and suggested that.
    I was later talking with somebody in the Department of 
Justice and he said, you can't do that, that will never work. I 
said why? He said because it is DOJ, Department of Justice, and 
Treasury, two different Cabinet agencies; you will never merge 
them. He said you can't even merge DEA and FBI.
    Well, I don't know if that is true or not, but that is the 
mentality of this town that we don't take agencies from one 
Cabinet department to another. And it does suggest to me that 
maybe we can overcome that. Maybe there is a time for us to 
consider improving the efficiencies in law enforcement.
    In Mobile, AL, Mr. Chairman, there is an ATF office, there 
is an FBI office, there is a DEA office, a U.S. Customs office, 
an Immigration office, and a Border Patrol office. All of them 
have the same copy machines, supervisors, bureaucrats, and 
different paperwork reporting systems that one won't merge with 
the other.
    So to say that we can't make some progress in improving the 
productivity of Federal law enforcement, I think, is an error. 
We need to be careful about it. A lot of people think our 
freedoms are better protected with a bunch of inefficient 
agencies rather than one big good one, but I am not inclined to 
believe that we can't improve that.
    With regard to the ATF, Mr. Chairman--and I'm sorry Senator 
Schumer has left--I really believe there has been a big-time 
change in policy. A lot of that policy is unhealthy, a belief 
that somehow if you target legitimate gun dealers that that is 
somehow going to stop crime. We had hearings in this very 
committee not long ago regarding Project Exile in Richmond, 
which is very similar to the project that I ran as a Federal 
prosecutor in Mobile, AL, for several years, in which you 
target criminals who are using guns.
    Under the tough Federal guidelines, they are sentenced 
under the Speedy Trial Act, as Judge Webster knows, within 70 
days. If they are already out on bail on another crime, they 
are denied bail and tried promptly within 70 days, and they 
have mandatory sentences, if they are caught, and removed from 
the community. And Richmond found that they had a 40-percent 
reduction in the murder rate in the city by implementing that 
policy.
    What has happened with ATF is that they are going off 
chasing these mythical big gun dealers that are putting all the 
guns out on the streets. And we all know, I think, in law 
enforcement they come from any number of sources that get on 
the streets. There is not one mythical supply of guns. And they 
said, we are not working those little cases. Attorney General 
Reno said we want to work the big gun cases.
    Well, Richmond proved that if you prosecute those criminals 
who are using guns steadfastly and the word is out on the 
street, violence goes down. And there are people not alive 
today who have been murdered because this administration has 
refused to prosecute the laws that this Congress has given 
them. And I have raised it with them each of the 3 years I have 
been here. I have raised this very issue.
    We have charts showing a 40-percent decline in prosecution 
of gun cases since the Clinton administration took office, and 
it is dramatic and it has cost lives in America, while we 
define somebody who cares about ending violence by whether or 
not they want to pass some more laws on innocent, law-abiding 
citizens who believe they have a second amendment right to bear 
arms. I believe they do, too.
    So I think there is some room to question the policy that 
ATF is using, and some real basis to question the policy of the 
Department of Justice. Properly carried out, with the resources 
they have, I believe we could do much more right this minute in 
fighting gun violence. And I spent 15 years as a Federal 
prosecutor. I prosecuted personally probably 100 gun cases, and 
so I think I have some experience in what we are talking about.
    Mr. Chairman, thank you for your leadership. Thank you for 
your leadership in developing the Federal Criminal Code that we 
have today, which is, in my opinion, probably superior to any 
State criminal code that is in existence. And you were the 
leader in making that happen and I am glad that you are having 
this hearing.
    Senator Thurmond. Thank you very much.
    Now, before calling on Judge Webster, I just want to 
compliment him for the various positions in which he has 
served, and served so efficiently and capably and dedicatedly. 
We appreciate you. Now, we will hear from you.

 PANEL CONSISTING OF HON. WILLIAM H. WEBSTER, FORMER DIRECTOR, 
 FEDERAL BUREAU OF INVESTIGATION, AND CHAIRMAN, COMMISSION ON 
 THE ADVANCEMENT OF FEDERAL LAW ENFORCEMENT; DONALD C. DAHLIN, 
PROFESSOR, DEPARTMENT OF POLITICAL SCIENCE, UNIVERSITY OF SOUTH 
 DAKOTA, AND MEMBER, COMMISSION ON THE ADVANCEMENT OF FEDERAL 
     LAW ENFORCEMENT; ROBERT M. STEWART, CHIEF, STATE LAW 
  ENFORCEMENT DIVISION, STATE OF SOUTH CAROLINA, AND MEMBER, 
   COMMISSION ON THE ADVANCEMENT OF FEDERAL LAW ENFORCEMENT; 
  GILBERT G. GALLEGOS, NATIONAL PRESIDENT, FRATERNAL ORDER OF 
 POLICE, AND MEMBER, COMMISSION ON THE ADVANCEMENT OF FEDERAL 
   LAW ENFORCEMENT; AND ROBERT E. SANDERS, FORMER ASSISTANT 
DIRECTOR OF CRIMINAL INVESTIGATIONS, BUREAU OF ALCOHOL, TOBACCO 
  AND FIREARMS, AND MEMBER, COMMISSION ON THE ADVANCEMENT OF 
                    FEDERAL LAW ENFORCEMENT

                STATEMENT OF WILLIAM H. WEBSTER

    Mr. Webster. Thank you very much, Mr. Chairman, not only 
for those remarks, but for the privilege of being here with the 
other members of the Commission to report to you and to 
entertain your questions on any aspect of the report.
    I have a brief oral statement to make, and I will not be 
able, nor do I think you would want me to cover all of the 
points in this extensive report. But with your permission, I 
would like to enter the full report in the record. With your 
permission, I would enter the full report in the record so that 
I can address my remarks to some key points. Is that 
acceptable?
    Senator Thurmond. Yes.
    [The report referred to is retained in committee files.]
    Mr. Webster. Mr. Chairman, you have introduced the other 
distinguished members of the panel. I would just like to say at 
the beginning what an extraordinary privilege and pleasure it 
has been for me to work with them. They bring a wide range of 
law enforcement experience to bear on these problems, and we 
ended up with a report with more unanimity and consensus than 
most of the things that I have been privileged to work on in 
the past. They are here to answer your questions, as well.
    We are reporting on our work under Section 806 of the 
Antiterrorism and Effective Death Penalty Act of 1996. It has 
been a 2-year project. A good many things have happened 
particularly in the terrorism arena that I could talk about, 
but will not in the interest of time. They are all reflected in 
the report.
    Just over the Christmas holidays and the New Year, we saw a 
number of incidents that would give the American people 
substantial concern. And, of course, their concern was 
heightened by the fear of what might happen under the Y2K 
situation, not only the unintended consequences of not being 
prepared for Y2K, which we were, thank goodness, but also the 
possibility of intended consequences by terrorists and others 
hiding behind the general concern about Y2K. And we were able 
to get by that successfully, as I believe we will get by most 
of the events in the future.
    But they are out there. The risks and probabilities of our 
experiencing terrorist events of major proportions continue to 
grow. We know, of course, all of those high-visibility 
situations. Some we have dealt with with extreme success, 
others not so successful. But I think the one in Oklahoma is 
probably the best example I can think of, of firm, effective, 
prompt law enforcement and law enforcement cooperation which 
resulted in the apprehension of those responsible and their 
ultimate conviction.
    We have made a number of suggestions. You gave us a very 
broad mandate, some 10 specific areas in which to study. And 
we, as I said, worked hard for 2 years trying to come up with 
our views, answers to questions, and suggestions for the 
Congress and the executive branch on how to look at the future 
and deal with it, at the same time maintaining, as the chairman 
pointed out, our capabilities in law enforcement to deal with 
the problems of white collar crime and other problems that are 
not new to this century but may find new methods of expression, 
such as cyber crime, for example, and intrusions into 
electronic computers, money transfers, and so forth.
    We have made some suggestions that Members here today have 
made reference to, particularly the suggestions for ATF and DEA 
being incorporated as law enforcement functions in the FBI, and 
regulatory functions being retained in their respective 
departments.
    I would like to say to the Members that these suggestions 
have indeed been made before, but I think there is an increased 
urgency that they be considered in the light of how the 
existing Federal law enforcement framework is going to cope 
with the vastly increased problems of global crime, terrorism, 
cyber terrorism, and cyber warfare. It calls for a look at the 
structure of our system and to see what kinds of logical 
improvements could be made.
    It is not an effort to aggrandize one agency over another, 
but to bring their respective talents together so that there 
would be less redundancy, less overlap, less confusion, and 
more effective results. These we commend to your consideration 
for whatever action you might take on these and other 
recommendations that we have made with respect to structure.
    We have also been concerned, of course, about the new kinds 
of crime, and we discuss those in the report. And we go on 
record as expressing our concern about federalism of crime, 
federalizing of crime. We understand that when Congress sees 
something that is wrong in the country and wants to do 
something about it, particularly with respect to 
criminalization, declaring that certain acts are criminal, they 
haven't many opportunities or alternatives except to make 
something a Federal crime.
    In many cases, we believe that State and local law 
enforcement is far better equipped, and that too much 
federalization dilutes rather than increases the effectiveness 
of Federal law enforcement. We talk about that more extensively 
in this report. Those are the key issues. Now, if I could just 
work backwards as quickly as I can to some of those, let me 
summarize our findings. We find they are troubling, but the 
recommendations, we think, are positive.
    We find that global crime, cyber crime, and terrorism are 
becoming serious threats. We have serious concerns about the 
readiness of the Federal Government to protect Americans and 
the national security unless steps are taken promptly.
    Much of the current structure of Federal law enforcement is 
based on problems of the past, not crime challenges of the 
future. We had a period of Prohibition, we had an agency, we 
still have an agency to deal with Prohibition. That is not 
necessarily the best way to approach the problem.
    Third, coordination of and cooperation among Federal, State 
and local law enforcement agencies are not all that we wish 
they could be or believe that they can be. As we point out in 
our report, Mr. Chairman, we conclude that Federal law 
enforcement agencies are among the finest in the world, and 
that most Americans share that view. We do point out the 
vulnerabilities of our system which grew like topsy in no 
particular order and has today a system of authorities and 
overlapping responsibilities that make us more vulnerable at a 
time when we have other serious crises that occur.
    I experienced that when I reviewed the actions of the 
various authorities during the riots in Los Angeles. I have 
seen that in a number of other cases where the public has not 
been satisfied with Federal performance, and it usually has 
something to do with overlapping and competitive efforts.
    So what do we recommend? We recommend that based on these 
conclusions, you consider a five-part action agenda which we 
submit. We believe that it is important for Congress and the 
President to, one--and I am giving you five now--one, make it 
clear that the Attorney General has broad coordinating 
authority for Federal law enforcement and minimizing overlap 
and duplication.
    The President and Congress should improve the 
administration of Federal law enforcement and its effectiveness 
by making that clear. There is and has been for 30 years on the 
books an executive order at the time of President Johnson 
giving the Attorney General that authority. Subsequently, 
Congress limited the authority ofthe Attorney General and 
others to restructure without its approval, and there were good reasons 
for that.
    Now, our conclusion here is that the groundwork has been 
laid. We would like to have the Congress and executive branch 
implement the executive order that has been ignored for most of 
30 years, make the Attorney General, like the Director of 
Central Intelligence, the director of central law enforcement 
so that the Attorney General can make sure that these problems 
of coordination and redundancy are effectively dealt with.
    Second, provide the intelligence and information needed to 
combat terrorism. The law enforcement and intelligence 
communities need to review their procedures and policies to 
ensure that the President, the Congress, and the National 
Security Council have adequate resources to coordinate 
activities and to pursue the information that Federal and State 
law enforcement agencies vitally need to combat the threat of 
terrorism both here and abroad.
    This is the third one: make global crime a national law 
enforcement priority. The President and Congress should expand 
the attack on global crime, on narcotics trafficking and cyber 
crime with new determination and energy.
    Fourth, reverse the trend toward federalization. Congress 
and the President should support a new federalization 
prevention act to minimize Federal intrusion into State and 
local enforcement and reverse the recent trend toward 
federalizing crime. I have just discussed the reasons for that 
and its impact upon Federal crime as the number of laws on the 
books goes from a dozen or so at the time our country was 
founded to several thousand now, for which a relatively small, 
disorganized Federal law enforcement system is required to 
deal.
    And, finally, the fifth point: Focus on professionalism, 
integrity, and accountability. We believe that there are vast 
differences in professionalism and accountability especially 
among the Federal agencies, different standards for such things 
as use of deadly force, for example. There ought to be one 
Federal standard for the use of deadly force. And so we 
recommend that the President and Congress should require that 
Federal law enforcement agencies establish new standards for 
professionalism, integrity, and public accountability that are 
standard across the board.
    Mr. Chairman, the Nation critically requires a Federal law 
enforcement establishment that is ready to meet the crime 
problems of the future as well as those that are well underway 
today. Our Commission soon goes out of business. As 
individuals, we stand ready to help the Congress in any way 
that we can. We are prepared to testify at hearings and assist 
others in appropriate ways.
    It is an honor to appear before you this afternoon, and I 
am sure that my other colleagues may have additional comments 
to make and we will respond individually or collectively to 
your questions as they come.
    Thank you.
    Senator Thurmond. Judge, thank you very much for your fine 
suggestions.
    I think we might as well start and go down the line. 
Professor Dahlin.

                 STATEMENT OF DONALD C. DAHLIN

    Mr. Dahlin. Thank you, Mr. Chairman. I am very honored to 
have had the opportunity to serve on this Commission, and 
honored to have the opportunity to testify today before this 
subcommittee.
    When our Commission came together a little over 2 years ago 
now, I must say that I had some question in my mind as to 
whether or not we as commissioners would agree on anything, 
given the diversity of the appointing authorities and given, as 
well, the diversity of our experience. Thus, I think it is 
worth highlighting the fact that, in the end, we ended up 
agreeing on everything.
    And I think that that unanimity is the result, first of 
all, of the excellent work of our Chair, Judge Webster, of the 
fact that my fellow commissioners have been as hard a working 
group as I have ever been associated with. But also I think it 
is the product of taking seriously the charges that you gave 
us, particularly trying to focus on what are going to be the 
law enforcement challenges in the 21st century.
    And as Judge Webster has indicated, we see--I don't think 
there is any great surprise in this view--that 
internationalization, globalization, cyber crime, cyber 
terrorism, terrorism in general, are going to loom much larger 
in the Federal law enforcement scheme than they have in the 
past. And I think it is that vision every bit as much as our 
analysis of how Federal law enforcement has operated that has 
driven our conclusions and our recommendations.
    Thus, when we recommend trying to make some changes in the 
organizational structure of Federal law enforcement, that is 
being done, I think, not so much because it is a criticism of 
the existing performance of Federal law enforcement agencies, 
but rather it is the product of seeing that Federal law 
enforcement will face new coordination challenges in the 
future.
    In the past, it has been difficult enough to coordinate 
with other Federal law enforcement agencies and State and local 
law enforcement agencies. Now, in the future, there will be the 
need to coordinate more with the Department of Defense, the 
Department of State, with foreign nations, with the 
intelligence community. These will be enormous challenges for 
Federal law enforcement, and I think it will be very difficult 
for Federal law enforcement to meet those challenges given its 
current organizational structure. So that is, in part, I think, 
at least for me, why those recommendations are so important.
    I would also hope, and I am sure this will be the case, 
that beyond focusing on the recommendations with respect to ATF 
and DEA that the committee members and Congress Membersand the 
executive branch will focus as well on the other recommendations, as 
Judge Webster has indicated, our recommendations with respect to the 
Attorney General. We also make a recommendation about creating a 
permanent interagency group to help the Attorney General do a better 
job of coordinating Federal law enforcement. And I think almost no 
matter what happens, I would hope that recommendation would get 
implemented.
    We also make a recommendation that suggests looking in an 
even more fundamental manner at reorganization than simply 
taking the ATF and DEA to look at the possibility of creating 
five law enforcement agencies, in effect, in these major 
functional areas. And we did not have the time to develop a 
specific proposal in that area, but as we talked about the 
subject and the needs of Federal law enforcement, we certainly 
came to the conclusion that this was an issue worthy of further 
examination. We hope that your committee and other Members of 
Congress will look at that, as will members of the executive 
branch.
    I think our recommendations about federalism in large part 
also track this major view of the needs of Federal law 
enforcement. If we continue to spread Federal law enforcement 
efforts in fighting important crimes, but crimes that are 
essential State and local in nature, we make it again far less 
likely that Federal law enforcement will have the time and the 
resources that we think are going to be needed to fight the new 
types of crime in this new century.
    And, lastly, in the area of professionalism and integrity 
and accountability, again it seems to me those tie in with this 
basic view as well that given all that is going to need to be 
done, the important work that Federal law enforcement has 
before it, it becomes all the more important that we ensure 
that the officers have the training they need, the policies are 
clear, and that they are accountable for the work that they do.
    So we hope that, again, even as some of the more 
controversial issues get focused on that those other issues 
will not--you will not lose sight of them because I think that 
they are also extremely important, and I trust somewhat less 
controversial.
    In conclusion, Mr. Chairman, I would simply note that I 
would hope that all of us, as we continue to move toward the 
objective that I think we all share of helping to ensure the 
finest Federal law enforcement effort that we can, that we will 
focus our efforts by looking at the issues that are going to be 
before Federal law enforcement in this century and not fight 
the battles of yesterday's wars and yesterday's problems.
    Thank you, Mr. Chairman.
    Senator Thurmond. South Carolina is proud of the good work 
that Chief Stewart is doing.
    Chief Stewart.

                 STATEMENT OF ROBERT M. STEWART

    Mr. Stewart. Thank you, Senator. We are surely facing 
challenging times in the United States, and much change has 
affected law enforcement over recent years. Federal, State and 
local law enforcement surely play an important role in our 
society, and without professional, competent, coordinated law 
enforcement at all levels, this country would probably not even 
exist. But we must look to the future.
    I am speaking to you from front-line experience as Chief of 
the State Law Enforcement Division, SLED, which you created as 
governor in 1947 yourself. And prior to that, I served 7 years 
in the U.S. attorney's office with SLED coordinating State-
Federal investigations. We deal with the Federal agencies 
everyday, and they are very good agencies and we make a lot of 
progress working together. However, we can do better.
    I have concerns with the duplication of effort and mission 
of some of the Federal agencies. If you look to our military, 
our military is coordinated and defends our Nation from foreign 
enemies and basically has five branches. However, the Federal 
agencies in this day and time need better coordination and 
resources to adequately address the problems of the future.
    I would say that there is a growing threat to our country; 
there has always been from foreign governments. There is an 
increasing growing threat to our Nation from transnational 
criminal organizations and terrorists and cyber crime, and 
Federal law enforcement is the only one that can deal with 
these problems. Therefore, it is going to be more and more 
important in the future that they are adequately organized and 
have the resources to handle that.
    Specifically, in the area of drugs, there are many times 
when the FBI and the DEA are working on very similar cases, 
have similar jurisdiction. There is much overlapping there. The 
extreme would be is we have SLED agents working with most all 
the Federal agencies. We even had a drug deal one time. We had 
undercover agents working with two Federal agencies, and it 
turned out one was in a reverse role and the other was not. And 
we had people on both sides of it and the Federal agencies did 
not know what was taking place. Fortunately, since we had State 
agencies on both sides, before there was a tragedy it was 
averted because we recognized what was going on there.
    In the area of bombs and guns, between the FBI and the 
ATF--and we work closely with both agencies; they are both fine 
organizations. But recently during the church fires, especially 
in the South, we were very active in those cases and solved 
some 70 percent of them in our State, which is like 5 or 6 
times the national average. But it iscertainly difficult to 
have to deal with two Federal agencies working on the same case. One is 
looking at the civil rights aspect, another is looking at the bombing, 
explosives aspect, and there is no need for there to be that type of 
coordination problem.
    And you hear all the arguments about how this won't work 
and that won't work. And we haven't recommended a lot of 
restructuring. We have recommended some that we think would 
greatly help the situation. But, you know, on a much smaller 
level, in South Carolina in 1994 this same thing was undertaken 
and several agencies were merged into SLED. And we were told 
you can't do this and you can't do that; you can't take an 
alcohol commission agent and make them a SLED agent. It just 
won't work. There are classification problems, there are 
qualification problems.
    Well, we did it, and over 2 years the ones that couldn't 
make it had to either sink or swim and it worked out. And now 
when a sheriff or chief of police needs criminal investigative 
assistance from the State of South Carolina, whether it is from 
DNA in the laboratory, to a gambling operation, to whatever, 
they call one place and they only have to deal with one agency 
and it makes it a lot simpler.
    We are not recommending that on the Federal level, a 
national police force. But in the area of the two suggestions 
we have made, we do think it would be a much more productive 
way to do business. Some of the ways things happen now are just 
no way to run a railroad, and we think that it breeds 
disorganization and a competition for limited resources that 
could best be used if there was one focused effort in that 
regard.
    Also, street crime assistance is very important and very 
helpful, but I would also say we have got to be sure that the 
Federal assets aren't stretched so thinly that they can't 
adequately address the true national problems that we have 
mentioned here today and that will become more and more 
problems in the future.
    In the area of accreditation, there are two accreditations 
available in law enforcement today. The one for laboratories is 
by the American Society of Crime Laboratory Directors, or 
ASCLD, and the other is from the Commission for Accreditation 
of Law Enforcement Agencies, CALEA.
    Now, a number of the Federal agencies are now beginning to 
come about and be involved in the laboratory accreditation. The 
FBI lab in the last year or so has become ASCLD-accredited. I 
think the DEA lab is already accredited. That is just an 
absolute must in this day and time to assure the public and the 
people that the labs are being run correctly and the proper 
safety procedures are built in there.
    About half of the crime labs in the Nation are accredited, 
and surely all the Federal crime labs should be accredited. 
There has been some reluctance on Federal agencies' part to get 
involved in accreditation. They think it doesn't apply to them, 
and I think that is a misconception.
    As far as agency-wide accreditation, that was begun by a 
Federal grant from a congressional program. Jim Cotter, with 
the FBI, was the first director of that commission, and it does 
a whole lot to standardize policy and procedure and see to it 
that agencies live up to the mandate they have and are run 
properly. It also fosters better relationships with local and 
State law enforcement, and I think it is something that really 
the Federal agencies ought to look at.
    I am happy to say that now the U.S. Marshals Service, with 
Ms. Reno's blessings, have applied for CALEA national 
accreditation. And your own U.S. Capitol Police here have 
applied for national accreditation as well, and I would hope 
that all Federal agencies would be involved in that program.
    Finally, I am concerned with the lack of resources and some 
of the administrative controls over some of your smaller 
Federal law enforcement agencies. We mentioned like there are 
five military branches, basically. Well, we found over 140 
Federal law enforcement agencies, which is somewhat mind-
boggling.
    But, for example, you have several law enforcement 
agencies--not several, a number, that are housed in agencies 
that have nothing to do with law enforcement. For instance, you 
have the Park Police. I think they are in the Department of the 
Interior. Well, when we took testimony, the Park Police was 
like 20-percent understaffed. Can you imagine that? They don't 
have the equipment and the resources they need.
    I mean, you have some crisis at one of these monuments here 
in Washington, DC, and the Park Police are 20-percent 
understaffed. I hope we don't have to have a crisis for some of 
the issues in our report to be addressed, but surely it needs 
to be looked at. And there are many times when it takes a 
crisis for something to happen, and we surely hope that 
everyone will look at this report and give it some serious 
thought.
    The agencies involved, even the ones we are talking about 
restructuring, are fine agencies and we have confidence in 
them. I work with them everyday, but there are better ways to 
do business and we are going to have to do business in a better 
way in this century to keep this country the way that it needs 
to be.
    If I have one fear about this whole program that we have 
put 2 years of our lives into, it would be that nothing comes 
of it and then there is some big crisis 3 or 4 or 5 years from 
now and we pull this copy down off the shelf of this report and 
dust it off and start looking at it. I hope everybody will 
really look at it. This is important to the security of the 
United States and of all of our people.
    I want to thank you, Senator Thurmond, for allowing me to 
be a part of this program, and hope to work with you in the 
future in improving law enforcement.
    Senator Thurmond. Thank you very much.
    Mr. Gallegos.

                STATEMENT OF GILBERT G. GALLEGOS

    Mr. Gallegos. Thank you, Mr. Chairman, and I want to echo 
the sentiments of my other commissioners and my colleagues on 
this very important study of Federal law enforcement.
    Congress really gave us a challenge through the 10 
provisions in the Act on how to come up with ideas that would 
make Federal law enforcement a little bit more responsive not 
only to the American people, but also to other law enforcement 
agencies, especially the State and local.
    I guess the challenge is really what do you expect of 
Federal law enforcement. If we expect to do the same things, or 
expect them to do the same things that they have done for the 
last 50 years, then you can do like the Chief says and put this 
report up on the shelf and put it away and 50 years later open 
it up again.
    But if we really expect Federal law enforcement to have all 
the tools that they need--and they are all fine, fine agencies, 
from ATF to FBI to the Capitol Police to the Government 
Printing Police to the Park Police. They are all fine agencies, 
but quite frankly what we found in our review of these agencies 
is they don't have the resources. When the Capitol Police can't 
talk over the radio with the Park Police, when the Park Police 
can't talk over the radio with the park rangers and they are 
all in the same area, it is shocking.
    And like the Chief said, if there is a tragic event, as 
happened here in the U.S. Capitol, and the agencies can't even 
communicate, how do we expect them to do their job? And I think 
we found that time and time again, and I think it is 
unfortunate that we ran out of time, to be honest with you. We 
had 2 years and the time was not there to look at the smaller 
agencies, those agencies that are out there day in and day out 
that are totally unprotected, that don't have the resources.
    We had testimony of some small agencies like in Interior 
and others where they don't even have a budget that is 
appropriated by Congress. They are just lumped in together with 
everybody else, and maybe they are fortunate to be able to draw 
some money down. That is why we spoke about that in our report. 
Especially in the equipment area, as the Chief said, the Park 
Police are 20-percent understaffed.
    But we find that in a lot of the smaller agencies where 
they don't have the resources, not only the tools, the 
technology, but they don't have the people resources to be able 
to do the job. So I think that this report has to be taken in 
the context that we can do more, and we can do more if we 
coordinate our efforts a little bit better.
    Another area that I would like to address is the area of 
terrorism and the counter-drug initiatives around the country 
by Federal officers and by State and local. We had testimony 
that there seemed to be a disconnect in the area of dealing 
with criminal intelligence where one agency doesn't coordinate 
their intelligence efforts with the other agency. They all may 
be working drugs or they all may be working one case, but using 
the tools, the technology that we have today, we should be able 
to do a better job with that.
    But we should also be able to do a job in delivering that 
information to the State and local agencies across this country 
who really have the bulk of the responsibility for enforcement 
of the laws of this country. In the criminal intelligence 
field, again, it makes it difficult, and we had testimony about 
the fact that State and locals don't seem to be able to glean 
the same intelligence information as Federal agencies.
    In the area of terrorism, we have the same situation. You 
ask yourself who is the first public safety officer that 
responds to a terrorism act, and every one that we have had in 
this country, every major one that I know of, it is either a 
State or local police officer or it is a firefighter or an 
ambulance driver or search and rescue or something.
    Yet, we have been unable to give them the tools and the 
information from the Federal level to the State and local level 
so that they can be able to better respond to the terrorist 
acts that really hurt all of us. So I think it is important 
that we really come up with some ideas, and we are proposing in 
this report how to do a better job with that.
    In the area of public accountability, we did a national 
survey, and the results are in the report, of really what the 
feelings of the American public were about Federal officers and 
the job that they were doing. For the most part, the American 
people support the Federal officers just like they support the 
State and locals, and we were gratified to hear that. But there 
are some areas of concern, and one of them was in 
accountability and how a citizen of this country could 
challenge an issue or take a complaint to Federal agencies. 
There was almost a disconnect there. They didn't feel that they 
knew how to do that.
    The Attorney General and her staff, as previous Attorneys 
General, have been going around the country saying how State 
and local agencies have got to be more accountable through the 
complaint process on State and local officers. Well, we in this 
report issued the same challenge to Federal officers. If the 
Department of Justice can insist that State and locals be more 
responsive, we feel that Federal officers should also be 
responsive.
    But in regard to the complaint process and investigation of 
officers when there are complaints, legitimate or illegitimate, 
we also have to keep in mind that Federal officers also have 
the rights of everybody else and that they have due process 
rights, which we feel is proper and should continue or should 
be made clear that Federal officers should be treated fairly at 
all times and be given all the due courtesies that we would 
give to anybody else.
    So what we thought in this report is we wanted to issue a 
report that was thought-provoking, that would challenge and 
would make the issues known the way we see them. And as Senator 
Sessions said, there are a lot of ``can'ts'' out there. If 
there is a will to make Federal law enforcement better, I think 
that this report is a start to make it a little bit better for 
an already fine group of Federal officers across this country.
    Thank you, Mr. Chairman.
    Senator Thurmond. Thank you, Mr. Gallegos.
    Mr. Sanders.

                 STATEMENT OF ROBERT E. SANDERS

    Mr. Sanders. Thank you, Mr. Chairman, for the opportunity 
to appear today before this subcommittee.
    Congress, in addition to giving us challenges, gave us the 
rare opportunity to be totally objective. We had the ability to 
focus on the area of inquiry and to find what is, and we did 
that, and then to make recommendations on what should be, 
without regard for what might be popular, what could be 
politically correct, what might be the term of the day, the 
short-term fix.
    We looked at jurisdictions, we looked at missions, and we 
looked at the policies of the major law enforcement agencies. 
We looked at the interrelationships with other Federal agencies 
and the relationships with State and local police departments. 
We tried to iron out what jurisdictions would be essential and 
which would be non-essential to face the challenges of the 21st 
century.
    In BATF, we found a small agency with disparate missions 
which are competing for dominance. One part of ATF is 
responsible for the administration of the taxes, for collecting 
taxes and regulating the alcohol, beer, wine, and tobacco 
industries. The other part of ATF and the part that we focused 
on is the responsibility to enforce the Nation's firearms and 
explosives laws. I had the honor and privilege to be the chief 
of ATF's law enforcement component during my career in Federal 
law enforcement, and some of my experiences are reflected in 
the report.
    Looking at the structure of ATF, the first issue is will 
the responsibility for tax collection and regulation of 
industries producing luxury items play any role in law 
enforcement in the 21st century. The answer is a resounding no. 
It did in the 1920's and the 1930's when we had Prohibition and 
we had a Federal crime to manufacture or transport or possess 
distilled spirits, and even beer.
    In the 1940's and 1950's, we had a lesser problem which was 
largely regionalized in the southeast region with non-tax-paid 
distilled spirits, moonshine whisky in the southeastern part of 
the country, which was having a corrosive effect on State and 
local governments and law enforcement in general. But these 
were wars that were fought in the century past and which are 
over. Our mandate was to make recommendations to prepare for 
the battles which will be coming up in the 21st century.
    The second issue with ATF is do the competing missions 
within the same agency have an adverse effect on law 
enforcement, and the answer is yes. The Commission analyzed the 
study underlying ATF's creation as a bureau, as a separate 
bureau, where it was taken from IRS and made a separate bureau 
in 1972. We looked at major studies of firearms law enforcement 
and its effectiveness, including congressional hearings in 1986 
on the Firearm Owners Protection Act. These were major studies.
    The consistent finding in all those studies was that the 
collection of taxes and the regulation of the industries are 
incompatible with the basic mission of firearms and explosives 
enforcement, and these duties should be transferred to the IRS, 
where they originally were, or somewhere else in Treasury. Vice 
President Al Gore performed a similar study, Reinventing 
Government, and came to the same conclusions. So the 
recommendations of the Commission merely buttress the findings 
of earlier studies, and we come back to the question of can we 
do something that hasn't been done before.
    A few words about the agency cultures, the cultures in one 
agency between the two forces, regulation and enforcement. It 
is axiomatic that criminals and crime cannot be regulated; they 
are not susceptible to regulation. Only the law-abiding will 
comply with the law and all the regulations that we care to 
write.
    This is a Nation that was founded on the principle of the 
rule of law. The law enforcement philosophy is simply that the 
cause of crime is the criminal, and the arrest and 
incarceration of criminals will, one, deter and, two, prevent 
crime. And the deterrence and prevention of crime is what it is 
all about, a better quality of life for the American people. 
There is one tiny speck of society, the criminal element, which 
must be the focus of all the efforts of the agency.
    On the other hand, the guiding philosophy of the regulator 
is that violent criminals can be restricted in their access to 
firearms by limiting the accessibility of firearms to the 
public. Within ATF, the competing philosophies, it is never all 
or nothing; it is somewhere in the middle, and it is time that 
we meet at the level of the criminal and focus all the 
attention on the criminal.
    One anecdotal incident before I leave. During my career in 
Federal law enforcement, there was another agency in Treasury 
that, as Senator Schumer said, was much maligned, and that was 
the Federal Bureau of Narcotics. Over a long period of time, 
the Federal Bureau of Narcotics became the Bureau of Narcotics 
and Dangerous Drugs, in some obscure department that I don't 
even remember, and ultimately came to the Department of 
Justice.
    And there can be no question about the effect of being in 
the Department of Justice and associated with the FBI has had 
on DEA, as we know it today. The ability to investigate complex 
investigations, the management changes that were effected, 
cannot be disputed. We don't hear any calls for the DEA to be 
transferred back to Treasury.
    That concludes my remarks and I will be happy to answer any 
questions.
    Senator Thurmond. I have some questions here and I will 
proceed with those now.
    Do any of you have any further suggestions?
    [No response.]
    Senator Thurmond. Judge Webster, there was considerable 
debate when the Commission was created about whether it would 
conduct investigations of specific Federal cases. However, it 
appears that you decided against this approach and the 
Commission appears to view Federal law enforcement in a 
positive light. Is this correct?
    Mr. Webster. That is correct, Mr. Chairman.
    Senator Thurmond. Judge Webster, most agree that there must 
be some separation of law enforcement authority to serve as a 
check and balance on power and ensure that the Federal 
Government does not develop one national police force. Would 
combining ATF and DEA into the FBI bring America too close to a 
national police force?
    Mr. Webster. Mr. Chairman, the answer is no, and if I may 
give my reasons, every member of this Commission unanimously 
endorsed that particular recommendation. Every member of this 
Commission is emphatically opposed to a national police force.
    There are some 11,000 special agents in the FBI. That is 
approximately one-third the size of the police force ofNew York 
City, and they must operate around the globe. If there were to be an 
amalgamation of the resources and the talent in ATF and DEA, that would 
only represent an additional 4,000-plus from DEA and some 1,800 from 
ATF. It would not materially increase the FBI to the extent that anyone 
could arguably say that that group, with, say, 17,000 or 18,000 people 
in it, with some 85,000 Federal law enforcement officers, now became a 
national police force.
    Furthermore, I think the history, the training, and the 
close association with the Department of Justice, with direct 
reporting to the Attorney General, over the years has made 
those in the FBI extremely conscious of their responsibilities 
under the rule of law. I cannot imagine that strengthening law 
enforcement in this area by putting these three fine 
organizations together would threaten a Federal police force or 
would damage our concept of what the rule requires of those in 
Federal office.
    Now, that is a suggestion that we have made. It has been 
made before. We felt obliged because of our unanimous agreement 
to give it to this committee and to the Congress as our 
considered opinion. I can recall 20 years ago when Attorney 
General William French Smith came into office and determined to 
bring the FBI into drugs. Those in the FBI had been thinking 
about it a long time, and I was there as Director. We were 
unanimously of the view that drugs had gotten too threatening, 
we had seen too much of it in organized crime, and that we had 
a role to play. We wanted to play it.
    The thought at that time, and the order of the Attorney 
General was to have the DEA report through the Director of the 
FBI to the Attorney General, thus bringing us that much closer. 
I was not in favor 20 years ago of a merger of the two 
organizations. I believed that it made sense in the longer 
term, but I believed that culturally, structurally, it was 
premature to do that. And it was my view, let's make them more 
alike, get them a chance to work together--this was the FBI's 
first foray into official drug enforcement--and let's see if 
over time they won't reach a point where they could come 
together successfully.
    We moved the DEA into Quantico so that it could receive the 
same kind of training that the FBI special agents did. We took 
a series of steps to improve the level of coordination and 
cooperation. But coordination is a reed that law enforcement 
has to lean on, and sometimes it becomes a lean reed.
    I was down at Quantico not long ago when one of the special 
agents who was very helpful to me retired and I had a chance to 
talk to some of the drug enforcement agents down there as well. 
A great deal has happened in 20 years, and as we confront the 
challenges of the future, particularly with the international 
aspects of narcotics and global terrorism and narcoterrorism, 
it seems to me that those organizations could work together 
better in the same house, utilizing the same laboratories, 
utilizing the same indices and all the other combined skills 
that would make them more productive.
    I can't give you the level of experience I have with DEA 
when I talk about ATF, but I can say when I was a U.S. attorney 
in 1960, I had tremendous admiration for the men and women in 
the Bureau of Narcotics who were struggling against enormous 
odds with very few resources, many of them in life-threatening 
situations. I can't tell you how many agents I saw walking 
around with bullet wounds and bandages, and when they were 
finally merged into--some of the process that took them from 
Treasury on into the Department, good things happened.
    Now, with ATF, there is, to me, a curious situation here. 
Agents are asked to, on the one hand, deal with problems of 
alcohol, on another problems of guns, and on another problems 
of tobacco. There are criminal laws that need to be enforced. I 
am not sure why that particular mix makes sense in a world in 
which structure is going to become increasingly important. It 
does make sense, it seems to me, to leave those regulatory 
functions where they are, in Treasury for ATF, and in the 
Department of Justice for DEA, and put those law enforcement 
capabilities with the FBI and the DEA.
    Mr. Chairman, I realize I have given you too long an 
answer, but I wanted you to get a sense of why we think not 
only does it make sense, but that we are ready to approach this 
now. We have extraordinarily talented people. Structurally, 
today, it does not make sense to us. We think that a 
consolidation can be and should be seriously approached.
    Senator Thurmond. Judge Webster, your report calls for a 
greater focus on narcotics trafficking, which is the primary 
mission of the DEA. However, the report also calls for the DEA 
to be made a division of the FBI. Would making the DEA part of 
the FBI, which has a wide variety of missions, give the 
impression that the Government is putting less emphasis on the 
war on drugs?
    Mr. Webster. I certainly hope not, Mr. Chairman. I can't 
imagine that a structure that brought the FBI and the DEA 
together would be anything less than one in which the narcotics 
efforts would be one of the major divisions of the FBI, with 
its chief reporting directly to the Director of the FBI and 
able to bring to bear resources that are not ordinarily 
available to DEA without considerable effort and coordination. 
So I would think they would be very much in the picture. The 
fact that the FBI was totally committed to that exercise 
because it had the full responsibility, with DEA, I think would 
only argue for a stronger perception of the anti-drug effort in 
this country.
    Senator Thurmond. The next question is for you and Chief 
Stewart. The report notes overlaps between the FBI and DEA 
regarding drug cases, and recommends that DEA become part of 
the FBI. However, wouldn't it be more efficient to take the 
drug mission of the FBI and the accompanying resources and 
transfer that mission to the DEA?
    Mr. Stewart. Well, clearly it would eliminate the 
duplication of effort problem if you were to do that. However, 
I don't know that the same amount of resources would be devoted 
to the drug problem as would be if the two agencies were 
together. You have different components of agencies; for 
instance, something as minor as polygraphs, intelligence-
gathering, support units for major operations, major raids, all 
of this type thing.
    If someone were to suggest, for example, that an agency 
such as SLED on a State level were to take its narcotics unit 
and turn it into another separate State agency, I think we 
would be laughed out of the State. Or if a major city police 
department was going to take its narcotics unit and turn it 
into a whole separate agency in the city, I think it might not 
make any sense to do it on that level. I don't know why it 
makes any sense to do it on a Federal level.
    I think, if anything, there would be more resources 
available. With the FBI's involvement in tracking organized 
crime and transnational drug organizations, there would surely 
be a duplication of effort there. Now, to take drugs totally 
away from the FBI would eliminate that, but I think you would 
have a better focus and a more total concept of drug 
enforcement to have it within one shot.
    Mr. Webster. Mr. Chairman, I agree with everything that 
Chief Stewart has said, so I won't try to repeat it. I would 
simply again refer to the fact for the Chair that perhaps an 
even more important recommendation, a broader recommendation on 
structure is to make the Attorney General responsible for law 
enforcement in this country.
    I believe that the Attorney General's relationship to the 
FBI over the years puts it in a better position to receive 
these resources rather than to begin to break up their own 
resources otherwise directed to different kinds of organized 
crime and different kinds of terrorism simply to preserve the 
identity of an agency that could be very much alive and well 
inside the FBI.
    Senator Thurmond. Mr. Sanders, concerns have been raised in 
recent years about the decline in gun prosecutions and in gun 
case referrals to the Department of Justice from ATF. Do you 
believe that putting ATF enforcement into the FBI would make it 
more likely that gun prosecutions will increase?
    Mr. Sanders. The statistics that I have read in public 
documents, Mr. Chairman, indicate that the production has 
greatly decreased, the number of prosecutions of firearms 
cases. I think the first stage is to separate the regulatory 
part of ATF from the enforcement side so that there is a clear 
law enforcement mission and it is not eroded by the regulatory 
impact.
    Following that, you would have a stand-alone agency within 
Treasury which would be responsible for only the enforcement of 
the firearms and explosives laws. There is no regulation which 
goes with the firearms and explosives laws. There is a small 
licensing component, but no regulation, no fines, no 
suspension. It is all pure law enforcement. So I think that 
wherever that organization is, whether it remain in Treasury or 
be removed to the FBI, would be a concentrated law enforcement 
agency which would increase production.
    Senator Thurmond. Senator Sessions, take charge. I will be 
back in just a minute.
    Senator Sessions. Thank you, Senator Thurmond.
    Well, I think that was not a bad question, Mr. Sanders, and 
the question is if we merge ATF into the FBI, routine run-of-
the-mill, bread-and-butter gun cases that, in my view, actually 
reduce violent crime--are they going to go up or down?
    Mr. Sanders. The essence of the statute, Senator Sessions, 
is the simple one-gun cases against bad people. That is how the 
statute should be enforced.
    Senator Sessions. That is what the thing was all about.
    Mr. Sanders. Yes, sir.
    Senator Sessions. And it works, in my view.
    Mr. Sanders. It does work.
    Senator Sessions. Some of my best friends are ATF agents. I 
don't go fishing unless I go with an ATF agent.
    They have great relations with local law enforcement as a 
rule, don't they, Mr. Gallegos?
    Mr. Gallegos. That is correct, sir.
    Senator Sessions. Judge Webster, you have seen this system 
from a couple of different angles, and first let me tell you 
how much I appreciate your once again taking a lead in law 
enforcement. You have on several occasions stepped up to the 
plate at critical times in this country's history and provided 
leadership and integrity and guidance that has been very 
valuable.
    As I look over your recommendations, I can't dismiss any of 
those recommendations. I think they are worthwhile, and any of 
us who care about making this system better needs to be dealing 
with those very issues. And I am sort of playing around right 
now, asking a few questions about it.
    Mr. Webster. Thank you, sir.
    Senator Sessions. But I think you have really clarified our 
thinking and got us focused on some things that are long 
overdue in being done. It strikes me that we do have too many 
agencies and there is too much competition among those 
agencies. Did you have occasion to look at the two gun-tracing 
programs that the FBI and the ATF both developed simultaneously 
and, in your opinion, is that an example of unwise competition 
and wasting of taxpayers' money?
    Mr. Webster. Well, it is potentially exactly that kind of 
example. I don't pretend expertise on it, but anytime two 
organizations are going after the same result, you have a 
number of questions on how transferable, how usable will it be 
in other agencies, or is it just designed to fit the machinery 
inside one agency.
    There are arguments that we used to make in the 
intelligence world about competitive analysis, but it is a 
different thing when you are trying to produce something that 
will serve all of law enforcement and you have two people going 
off in potentially different ways and different approaches. And 
the rest of law enforcement, State and local, have to wait and 
guess which one they can properly plug into.
    Senator Sessions. Mr. Sanders, would you comment on that?
    Mr. Sanders. Yes, Senator. Both systems were well-
intentioned and their purpose was to assist State and local law 
enforcement. We heard testimony from the labs, from the State 
and local labs that not only was it not providing the 
assistance, but they were forced to duplicate their efforts and 
service both systems because they didn't know which system 
would end up on top.
    Senator Sessions. And the FBI and DEA were both----
    Mr. Sanders. FBI and ATF.
    Senator Sessions [continuing]. ATF--were like salesmen 
trying to sell their systems, arguing why theirs was better 
than the other?
    Mr. Sanders. If you were to describe it, you would just say 
it can't happen here; that can't happen.
    Mr. Webster. I would put in another plug for enhancing the 
authority of the Attorney General. The Attorney General could 
step in in a situation like that.
    Senator Sessions. Well, Judge Webster, now you raised a 
question. How long is the tenure of the FBI Director now?
    Mr. Webster. Not more than 10 years.
    Senator Sessions. Not more than 10 years. They are 
senatorially confirmed, and for a lot of reasons people want--
and you served in that office--an independent FBI Director. The 
Attorney General basically serves at the pleasure of the 
President, and the FBI is jealous of their prerogatives.
    How could we move to giving the Attorney General more 
coordinative power, realistically? How can we make that a 
reality? I think that ought to be done.
    Mr. Webster. Well, it is a combination of an executive 
order supplemented by congressional concurrence, as I 
understand the current law that restricts any restructuring and 
requires congressional concurrence. The lead could come either 
from the Congress or from the executive branch if they were 
sympathetic to the recommendations.
    I was looking for the list of recommendations that we made 
with respect to the Attorney General. Here it is; I have it on 
pages 108-109. The answer to your question is just what I think 
I said, although not as artfully: Strengthen Executive Order 
11396 which is already on the books, updating it through 
presidential or congressional action, if necessary, to reflect 
new global and national realities, and reissue it to ensure the 
Attorney General becomes the focal point of the Federal 
Government.
    Senator Sessions. So let me interrupt you now. Here, we 
have gone through a process, and I was troubled by it and not 
too certain we did the right thing. We have eliminated the 
independent counsel.
    Mr. Webster. Yes.
    Senator Sessions. So that leaves all Federal law 
enforcement under the control of the Attorney General. Would 
you agree? Well, no.
    Mr. Webster. No. That is the problem.
    Senator Sessions. I guess you have got Secret Service and 
ATF and other departments.
    Mr. Webster. That is right, different departments.
    Senator Sessions. But the prosecutorial authority is under 
the Attorney General, the ultimate prosecutorial authority.
    Mr. Webster. Yes, that is right.
    Senator Sessions. I am troubled by the fact that the 
Attorney General is the personal appointee of the President, 
serves at the pleasure of the President, and may be called upon 
to investigate matters that would be embarrassing to, or even 
criminally implicate the President or high executive officials.
    We have no independent counsel now, and so would you agree 
that we need not, at least under those circumstances, undermine 
the independence of the FBI? That at least is one agency with 
some additional independence in this process.
    Mr. Webster. I certainly agree with you, Senator. I don't 
believe that our suggestion was intended, nor do any of the 15-
or-so specific recommendations that are contained on page 109 
of the report lead us in that direction. The FBI has often been 
criticized for not acting responsive enough. In point of fact, 
the FBI reports through the Attorney General and not otherwise, 
and it has jealously guarded its independence from the White 
House in terms of taking specific tasking on criminal cases, or 
not taking specific tasking.
    It does have to pass muster with the Department of Justice 
and the Attorney General. I don't know of any alternative to 
that, but the role that is defined here is not dissimilar from 
that of the Director of the Central Intelligence as to all of 
the other intelligence agencies in the community. It is more 
than a den chief role, but it does not destroy their 
independence. It talks about things as developing and 
implementing objectives and guidance for law enforcement, and 
formulating and implementing policies and procedures regarding 
law enforcement.
    It does not anywhere in here suggest that she should 
arbitrarily decide to foreclose an investigation that is 
otherwise authorized under existing guidelines of the Attorney 
General himself or herself. I am reminded of a previous 
Attorney General some years back who was greatly loved and 
independent to the extent that he said, the President is 
entitled to my best opinion; the President canfire me, but he 
may not change my opinion. And I think that people felt that that is 
the way it would be.
    We had a different Attorney General who resigned on matters 
of principle. And as long as we have principled Attorneys 
General who are reminded either by Senators or others of that 
responsibility, I don't fear for the Republic. I fear for the 
Republic if our Federal law enforcement system goes off in all 
directions and no one, including the Attorney General, has the 
authority to pull it together and make it go and work in 
harness.
    Senator Sessions. Well, you have an opportunity to fix 
responsibility with somebody, and it is a rather bizarre 
circumstance we have today. And I listed a lot of agencies, big 
agencies; one is the U.S. Marshals Service. That is a growing 
agency and, in my view, has less to do than it did 10 years ago 
in some ways and is probably bigger and higher-paid.
    The taxpayers are entitled to the finest production that we 
can get for them. There is no doubt in my mind that as years go 
by, certain agents become more productive and certain agents 
become less productive. We need to figure a way to get more 
resources to those who produce and a way to get rid of some of 
those who don't produce. I have seen that as just blatantly 
clear.
    The idea that if you took the law enforcement from ATF--I 
won't go into that proposal. Let me ask you this. I have 
thought there is sort of a harmonious cultural relationship 
between the Secret Service and the FBI. They were trying to 
give the Secret Service more financial responsibility, more 
money laundering responsibility. The Secret Service protective 
duties could easily be a special responsibility of agents 
within the FBI, and all agents could be available to assist on 
big days when something special is happening.
    Have you given any thought to a consolidation of the Secret 
Service?
    Mr. Webster. We did give thought to it, and within the time 
frame that we had we couldn't debate out all the issues. But 
there was really no support from within the Commission for 
consolidating those. They have mostly separate functions and 
they have worked well together in the past. In the white collar 
crime area, particularly bank-related crimes, the Secret 
Service has the expertise and has performed well, and that 
keeps them busy when the protective issues are not on the front 
burner. So there is a kind of good working back and forth in 
those two skill areas. That has never really been a problem 
between the two agencies, but where you do have, as you do with 
DEA and FBI, concurrent, not staggered but concurrent 
responsibility, it is ripe for unnecessary trouble.
    Senator Sessions. Is there any concurrent Secret Service 
and FBI jurisdiction over financial matters?
    Mr. Sanders. There is some, Senator, but they don't seem to 
be running into each other and conflicting.
    Senator Sessions. Well, they don't, but they are doing 
basically the same thing. They are working with banks and 
credit card companies and people who are defrauding all over 
the country and things like that. I am not sure that they 
really wouldn't perform better as one unit.
    Mr. Gallegos.
    Mr. Gallegos. Mr. Chairman, Senator Sessions, one of the 
areas that we did discuss, and Chief Stewart alluded to it, was 
in the laboratories. What we found was a tremendous amount of 
duplication of effort, or capabilities, I would say--not 
effort, but capabilities within the labs. The Secret Service 
has a document lab, the Immigration people have a lab, the FBI 
has a lab. They are all fine labs, but they all do document 
work.
    Senator Sessions. We always wanted the Postal fingerprint 
guy, though.
    Mr. Gallegos. And the Postal people. Everybody has a lab, 
and that could be an area where there could be more joint 
effort there rather than having a lot of separate bureaucracies 
and separate efforts by the various agencies.
    Senator Sessions. That is a good suggestion.
    Mr. Gallegos. But in regard to either joining or 
duplication of effort, we did talk about those specific issues.
    Senator Sessions. I would just ask you one thing. Do you 
believe that backups over work in labs on drugs and other 
laboratory matters in State and local police departments are 
adversely affecting law enforcement? That could be an 
appropriate role for the Federal Government to help support 
State and local laboratories.
    Mr. Gallegos. Mr. Chairman, Senator Sessions, I think there 
could be more effort--and I am not saying that they don't; the 
DEA has a lab and the FBI has a lab.
    Senator Sessions. I am talking about like your State drug 
cases. In Alabama, I see a report that our laboratories' drug 
analysis is backed way up, therefore delaying the commencement 
of drug prosecutions. If the Federal Government wanted to help 
State and local law enforcement, based on your experience, 
would that be a way to help them?
    Mr. Gallegos. I think it would be an excellent way to help. 
The other thing, though, when we heard testimony from the State 
labs was really the evolving capabilities and expertise in the 
State labs. In some respects, the States don't need the Federal 
agencies anymore. In other respects, they do.
    Senator Sessions. I understand that.
    Mr. Gallegos. So I think there has to be kind of a tradeoff 
of effort and coordination of effort.
    Mr. Stewart. I think you are familiar with the National 
Forensic Act that a number of State directors have come to you 
and Senator Thurmond, as well, about and is now under 
consideration here. I can tell you there is not a greater 
service that the Congress could provide to State and local law 
enforcement than to help our forensic science laboratories. We 
are desperate for help.
    Senator Sessions. Now, that is a big statement you just 
made, and my instinct tells me the very same thing. When you 
have to wait 90 days before you can commence a cocaine case 
because the State lab is so overworked they can't get the 
report back, then that has really fouled up your legal system. 
Sometimes, it is a lot longer than 90 days.
    Is that what we are referring to?
    Mr. Stewart. Absolutely, and not only drugs, but in other 
areas as well. Drugs is one of the primary problems we have 
right now, drugs, toxicology, and some other areas. It is 
really a serious problem, and I don't think there is a greater 
thing that Congress could do.
    You have got to understand 95 percent of all the forensic 
science work done in this country is done in a State or local 
crime lab. It is not done in a Federal lab. They are putting 
100,000 new police officers on the streets of the United 
States. The evidence they seize that goes to a laboratory is 
going to State and local laboratories. So the Federal 
Government is putting all these new officers on the street, but 
the State labs are not getting the assistance that we need to 
keep up with that new volume, or the old volume as far as that 
goes.
    Mr. Dahlin. I wanted to return to your earlier question on 
the Secret Service. We did have a proposal by one of the people 
who testified saying we ought to create a Cabinet-level 
department of law enforcement, bring it all together. And we 
rejected that because we have a concern that the Members have 
that we do not want a national police force.
    But I would invite your attention and members of the 
committee and others to the recommendation that is on pages 110 
and 111, where we are suggesting that in the longer term it may 
make sense to create a unit that would be responsible 
principally for financial and regulatory enforcement that would 
bring together folks from the Secret Service and the Customs 
Service and IRS enforcement to really concentrate our efforts 
in that area. And so in not recommending bringing the Secret 
Service into the FBI, we are not suggesting that we are perfect 
in that area. We would like to offer this other option for your 
consideration as well.
    Senator Sessions. Mr. Chairman, thank you.
    Senator Thurmond. Chief Stewart, the report recommends that 
Federal agencies be required to regularly undergo accreditation 
by outside agencies. Based on your experience with 
accreditation on the State level, do you think accreditation is 
important for Federal law enforcement?
    Mr. Stewart. Yes, sir, I do, and you are talking about a 
number of issues here. You are talking about the integrity of 
law enforcement, you are talking about professionalism, you are 
talking about standardization and uniform policies and 
procedures that every law enforcement agency, no matter whether 
it is Federal, State or local--no matter what the level, they 
should live up to these standards.
    There is a lot of time and effort that has been expended to 
come up with these standards. As I said, it was created by a 
Federal grant from Congress. A lot of time and effort has been 
put into creating this. There is a commission that is made up 
of law enforcement officials and academics from different 
levels that meets and comes up with these standards. And then 
an inspection team comes out and inspects the organization to 
see to it that all these standards are met.
    I can't think of anything the Federal agencies could do to 
encourage public confidence and relationships with State and 
local law enforcement, improve those relationships, than the 
national accreditation program. As I have said, a number of 
Federal agencies are now in the lab accreditation program with 
ASCLD, and the Marshals Service and the U.S. Capitol Police are 
now involved in aspiring to obtain this accreditation from 
CALEA. I don't see a downside.
    Some Federal agencies say, well, it doesn't apply to us. 
Well, SLED is a criminal investigative agency with a criminal 
justice information center, computerized, and a forensic 
science laboratory which is accredited. But we don't do street 
patrol or many normal police functions. Yet, we are nationally 
accredited. We have the two accreditations that are possible 
for us to attain. So it can apply to criminal investigative 
agencies, and does.
    Most of the Southeast State criminal investigative 
agencies--Florida, South Carolina, Georgia, North Carolina, 
Tennessee--are all nationally accredited, the State criminal 
investigative agencies. It is one thing, if nothing else, that 
the Southeast is clearly a leader in and we are proud of that 
and hope that the Federal agencies will become more involved.
    Senator Thurmond. Judge Webster, one of your conclusions is 
that the Attorney General should have broad authority to 
coordinate law enforcement matters. If the Attorney General's 
role becomes greater, are you concerned that non-DOJ agencies 
might be at a disadvantage in terms of resource allocations and 
jurisdictional conflicts?
    Mr. Webster. I am not concerned, Mr. Chairman, but I can't 
say that there isn't some possibility of that. However, the 
kinds of authorities that we outline on page 108 and 109, and 
indeed part of 110 of our report are not the kinds of things 
that are designed to make the other agencies less important or 
less effective. Quite the reverse.
    My experience as Director of Central Intelligence, under 
which I had some of these kinds of authorities to deal with the 
other members of the intelligence community, such as DIA, NSA, 
INR at the State Department, the military intelligence services 
and others, made it more likely that the community as a whole 
would be aware of and supportive of the role of these other 
agencies. They were not subsumed at all, and it would be my 
hope and expectation that that would be the same result with 
these recommendations.
    Senator Thurmond. Judge Webster, in the report's discussion 
regarding law enforcement priorities for the new century, you 
note terrorism and narcotics trafficking. Do you think that 
white collar crime, such as money laundering, is an increasing 
problem that deserves top attention in the new century?
    Mr. Webster. I absolutely do. Some of those problems, as we 
see them, for the future involve the globalization of crime, 
most of which involves, as I think the chairman pointed out 
earlier, money. Crime is always about money, except for a few 
crimes of passion that we are not involved in jurisdictionally.
    As Russian mafia groups form alliances with American La 
Cosa Nostra and Sicilian mafia and other places around the 
world, as we have already seen, we have enormous schemes, high-
stake financial things, all in the rubric of white collar 
crime. Some of it moves into the terrorism field by definition, 
but most of it has to do with stealing, and increasingly 
stealing by means of electronics, the computer, and so forth. 
So I don't think white collar crime is going to go away. It is 
very much a part of the 21st century and needs to be addressed 
with some of the suggestions we have made here.
    Senator Thurmond. Chief Stewart, your report has many 
meaningful findings. For example, it explains that practically 
every Federal agency of any size has its own separate police 
force. There appears to be no good reason for 150-or-so 
separate police forces. How do you believe they could be 
consolidated?
    Mr. Stewart. Unfortunately, we didn't have the time to go 
into a study of that in great detail other than to identify the 
problem. We do note, though, that there are several law 
enforcement agencies in small areas even right here on Capitol 
Hill maybe even employed by Congress that could possibly be 
somewhat easily merged, and at this point may not even be able 
to talk to each other on the radio, we are told.
    However, we were hoping that the board that we suggest be 
put together from amongst the law enforcement agencies in the 
Federal Government working with the Attorney General would put 
great study into that. I know within the Department of the 
Interior and the Department of Agriculture there are a number 
of small agencies that at least within their own agencies could 
be combined.
    But one of the biggest things that Gil Gallegos spoke to 
earlier is attention is not given to these law enforcement 
agencies. They don't have the manpower, they don't have the 
equipment to do the jobs that they are expected to do. Here 
again, it is something I think national accreditation might 
play a large role in. If the agencies were submitted to the 
process of national accreditation, you could find out where the 
shortcomings were and see what actions could be taken. But, 
clearly, the law enforcement agencies within a Cabinet agency, 
the uniformed ones, could be better coordinated and possibly 
some mergers in there where it is appropriate, and we would 
hope that that would be done.
    Senator Thurmond. Judge Webster, one of the report's 
creative recommendations regards the federalization of crime as 
a serious problem. Your report suggests that a law enforcement 
impact statement be written to accompany legislation that would 
create new Federal crimes, similar to budget impact statements. 
Please explain how a law enforcement impact statement might 
discourage the Congress from creating new Federal crimes.
    Mr. Webster. I would be happy to try. This suggestion in 
one form or another has been made in successive years by such 
people as the late Chief Justice Warren Burger, who was 
concerned that every time Congress, in its desire to be helpful 
to meet a problem, passed a law making particular conduct a 
Federal crime even though it was already a crime in all of the 
States of the Union. It added to the burden of the whole 
justice system. It requires more investigators, it requires 
more prosecutors, it makes a larger caseload for the trial 
courts and the courts of appeals.
    The hope, just as it was with the environmental impact 
statement, was that when someone came forward with the idea--I 
am being facetious now--that anyone who uses a handgun with his 
left hand has somehow committed a Federal crime using any kind 
of pretext to invoke Federal jurisdiction, they may be creating 
a series of problems for the justice system.
    Accordingly, the advocates of that type of legislation 
really ought to be required to take a look at what that is 
going to cost in human available personnel, cost in judicial 
resources, prosecutorial resources, and then let the Congress, 
with that information, make a judgment whether it is worth the 
candle to pass duplicate legislation of what is already on the 
books at the State and local level.
    Senator Thurmond. Judge Webster, regarding the 
federalization of crime, you also recommend that new Federal 
crimes have a 5-year sunset provision. Please explain why you 
think this is important.
    Mr. Webster. It is part of our view that measures have to 
be taken to curtail the expansion of the Federal arm into the 
criminal justice system, and that things go on the books and 
they stay there forever. There were about 12, I am told, maybe 
less, on the books when our Constitution was adopted. There are 
over 3,000 laws that criminalize conduct under Federal 
jurisdiction today.
    So if a new one is proposed, we think it would be healthy 
to have a sunset provision so that the Congress would have to 
take another look. Maybe we have the wrong number of years, but 
we suggested 5 so that the Congress, in order to save that 
legislation down the road, would have to decide it was a good 
thing. Otherwise, it would automatically expire if Congress 
didn't think enough of it to renew it.
    Senator Thurmond. Senator Sessions.
    Senator Sessions. When I was U.S. attorney, I wanted a U.S. 
attorney's impact statement. I think we even passed a 
resolution of the U.S. attorneys that that be done.
    With regard to the firearms, the real impact of Federal 
firearms prosecutions is on the prison system, and it does not, 
in my view, require large amounts of increases in prosecutors 
or ATF agents. If I ran both those agencies, you could have a 
50-percent increase in prosecutions without any increase in 
personnel within 6 months. It is just a question of where you 
set your priorities.
    But if you do a lot of the gun cases which traditionally 
were street-type crime cases that this Congress and this 
President have made a high priority--if you do that, you do put 
some people in jail and you do have to build some Federal jail 
space. That is an impact statement that really needs to be 
considered in the process.
    Gil, you mentioned the people who will first respond to a 
terrorist act, your colleagues and sheriffs' deputies and fire 
departments. Do you believe it is a fit role for the Federal 
Government to help train those people on how toreact to the 
various threats that they may face?
    Mr. Gallegos. Absolutely, Mr. Chairman, Senator Sessions. 
In our report, we also recommend that the Attorney General 
establish an interagency training board that would look at 
various training requirements. One of the requirements that we 
are recommending is that there will also be State and local 
training experts that would have the ability to provide input, 
and the reason is so that they would be able to better mesh the 
idea of law enforcement training and how that carries on to the 
States and the cities on how to better respond to terrorism or 
some other crime. So we felt that it was important enough that 
there should be a consolidated effort to do that, and through 
training and through this board they could really get to the 
meat of what is needed out in the field.
    Senator Sessions. Mr. Chairman, I would just mention that 
Fort McClellan, which was the Army's chemical weapons school in 
Alabama, is now beginning a program to train first responders. 
They have a waiting list of applicants and they have utilized 
their faculty from previous times and their chemical training 
facilities and all to do that. And it has been very well 
received, but we have put very little money in that in terms of 
how we are spending on counterterrorism. It is chicken feed, 
really, and I was disappointed this year that there wasn't an 
increase.
    I think it will have to go up in the future because the 
true fact is that it is our police and fire people who are 
going to be there first and if they don't recognize anthrax or 
some poison gas, they are going to die and citizens are going 
to die. We can help them be prepared for that, I believe.
    Judge Webster, on federalism, that is a very legitimate 
issue. I am sure all of you have discussed that and you have 
wrestled with it. I think it is appropriate, perhaps unwise on 
occasion, for the Federal Government to recognize certain areas 
that represent threats to the peace and dignity of the Nation 
and to emphasize it. We did it with drugs. We made a major 
step; we made concurrent jurisdiction with drugs, and we have 
done it with firearms. Arguments could be made that both of 
those are Federal Government coopting cases that should be 
State cases.
    My general view is if we have good ATF agents and good 
prosecutors who have time to prosecute gun cases, they ought to 
be prosecuting them as they can in helping fight this problem 
in partnership with the State and local police. The way we did 
it in Mobile and the way they did it in Richmond was that the 
chief of police and the U.S. attorney and the ATF actually have 
a little memorandum of understanding on how they are going to 
work the cases. And they work together, utilizing the 
capabilities of the Federal courts for certain type cases and 
State courts for others, and achieve some real results.
    But we are prosecuting cases. Federal judges told me, and I 
know they have told you, Judge Webster, this is a gun case that 
ought to be tried in State court. But unless we change the 
laws, I am inclined to think we ought to enforce them and use 
the resources we have got for that.
    Mr. Webster. Our big problem was not so much with the laws 
that are on the books. It was just simply randomly enacting new 
laws because the Federal Government just sort of wanted to get 
in, wanted to be helpful. Those determinations that you 
describe are conscious judgments that they represented a threat 
to our national security and our national well-being, and that 
is certainly consistent with the Lincoln Doctrine which we 
quote in here that the function of the Federal Government is to 
do for the people and the States what they can't do as well for 
themselves, or cannot do at all. When they run up to a road 
block where they need help, nothing in our report should be 
considered as opposing that.
    The Nunn-Lugar-Domenici bill is directed at precisely the 
kind of training that you were talking about for first-on-scene 
people for weapons of mass destruction, and we really badly 
need that now, not after the bomb goes off.
    Senator Sessions. And we have made some progress in that, I 
believe, philosophically, in that the Department of Defense is 
giving that up to the Department of Justice because they are 
troubled by military training and being deeply involved in 
domestic response efforts of the cities and counties. I think 
that is probably more healthy.
    Professor Dahlin, do you have anything to add to this 
discussion? It might be good to have a professorial view.
    Mr. Dahlin. You give a professor a chance and, of course, I 
have something to add. I guess I would make two or three 
points. First of all, back to the concern about national police 
and all of that, I think that the greatest danger to a national 
police force is a national criminal code. So if we keep adding 
and federalizing more and more common street crimes, someday we 
may wake up and look and say, look what we have done.
    Second, I think that the recommendations for an impact 
statement and for a 5-year review are designed to help Congress 
do just what you are suggesting. You make a considered judgment 
that indeed this is a national issue. The impact statement 
allows that judgment to be ratified before the law is passed, 
and the 5-year review allows it to be tested against reality 
afterwards.
    Finally, I am very concerned, and I think my fellow 
commissioners are as well, that what often has been happening 
is Congress passed a law, but it doesn't reallyadd enough 
personnel even to the law enforcement agency, much less at the 
prosecutorial level or the judicial level or the correctional level. So 
you have a law that says an agency is supposed to enforce the law and 
the reality is they are not, and it seems to me that is a recipe for 
public cynicism. Of course, every time you pass a law where there is a 
jurisdiction with a State and local agency, you have now multiplied the 
number of coordination issues we have got to deal with.
    So I think that absolutely, as Judge Webster said, there 
will be occasions when it is appropriate in our increasingly 
interconnected world for Federal law enforcement to get into 
areas that traditionally perhaps it has not. But that ought to 
be a much more deliberative, contemplative decision than I 
think it is at the present time.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Thurmond. Mr. Gallegos, your report recommends that 
the law enforcement and intelligence communities review their 
procedures and policies to ensure that they have adequate 
resources to coordinate activities. There seems to be no all-
encompassing national intelligence architecture in the areas of 
terrorism and counter-drug intelligence-gathering.
    Do you have any recommendations concerning streamlining the 
intelligence coordination among agencies?
    Mr. Gallegos. Yes, sir, Mr. Chairman. One of the concerns 
that we had was the connectivity questions that come up with 
computerized intelligence. We know that the different 
agencies--Department of Justice, FBI, DEA, the Secret Service--
everybody has their own component of criminal intelligence 
data.
    What has been the real obstacle to consolidating that data 
is that the agencies either reluctantly have connected some of 
it or have just said they are not going to connect it. And we 
feel that that has to be a focus so that they are all dealing 
with the same information the same way. What has been found is 
that the agencies don't have the capabilities or perhaps the 
will to exchange that intelligence information.
    We also have the creation of the various intelligence 
centers, from the EPIC Center in El Paso, which to this day is 
very reluctant to give up anything, any kind of information, 
especially to State and locals----
    Senator Sessions. They might collect it, but they are not 
too quick to give it out.
    Mr. Gallegos. Absolutely. They take your information, but 
it is hard to get your own information out of it. I know that 
from personal experience.
    But the key is to get these different intelligence centers 
to talk to each other and to exchange the information and to be 
able to disseminate that information as appropriate. That is 
the key, not to have blanket dissemination, but to be able to 
disseminate the information based on the need to those 
particular agencies, whether they be Federal or State and 
local.
    That is part of the policy development that has to be 
undertaken to ensure that it is easier to disseminate the 
information and that all the road blocks are not there. So when 
you have an agency that needs the intelligence, they can get it 
and they can use it appropriately.
    Senator Thurmond. Judge Webster, your report makes 
recommendations to greatly change the roles of the inspector 
general. You recommend that the offices of inspector general 
lose their investigative powers, with investigations apparently 
remaining within the agency. According to the results of your 
public opinion survey, 78 percent of Americans favor outside 
monitors of agencies authorized to report any abuses of power.
    Is your recommendation regarding the inspectors general 
consistent with public opinion?
    Mr. Webster. Mr. Chairman, I am not sure that it is 
consistent with public opinion, and I am not sure to what 
extent the public has an actual awareness of what the inspector 
general does and how that works out with the other agency 
responsibilities that have internal policing.
    Our concern was that the inspectors general over the 
years--and we have had some very good ones in time--tend to 
focus more and more of their time on internal policing, that is 
law enforcement investigation, rather than their principal 
focus to see whether the agency or the department is doing its 
job well and whether or not it is using efficient management 
procedures and whether people are carrying out their work for 
the people of this country in an aggressive and informed way.
    I confess a personal bias that I have always thought from 
the days when the inspectors general were first created that I 
wish they had been called auditors general because that is a 
role that the public generally thinks they are doing. They are 
monitoring how money is spent and how effective and efficient 
the performance is, and that is a very important outside role 
and I think it should not be diminished.
    But inside the Department of Justice, we have had at any 
given time an inspector general, a head of the Office of 
Professional Responsibility, and a head of the Office of Public 
Integrity. This is bound to create internal tensions and 
confusion. And we thought that as long as we were giving you 
our best suggestions for the future that we really ought to 
examine what an independent inspector general contributes that 
is not already being done in the Department.
    Senator Thurmond. Now, this question is for all of the 
panelists, all of you. The report makes numerous 
recommendations in various areas. I ask you this: What do each 
of you think is the one recommendation of your report that is 
most critical for the Congress to address immediately, and why?
    We will start right here.
    Mr. Dahlin. Well, if you force me to take one, I guess I 
would take the strengthening of the executive order and giving 
the Attorney General greater authority because I think that 
would be at least a beginning step in helping to pull together 
law enforcement in a way that seems critical to me if Federal 
law enforcement is to be prepared to work with the problems 
that are going to be there in the 21st century.
    Mr. Stewart. I would say eliminate the duplication of 
effort, duplication of responsibility, which causes 
disorganization and waste of resources.
    Mr. Webster. It is impossible for me to separate those five 
suggestions. There are many, many suggestions, dozens of 
suggestions. There are five basic principles that we submitted 
to you and they are integral; they can't really be separated.
    If we look into the future of law enforcement in this 
century and where it is going to take us, we must have a 
strong, central, accountable source of leadership, such as 
Professor Dahlin emphasized. We must have the intelligence and 
the information needed to combat terrorism. We must make global 
crime a national priority, and we must, in order to maintain 
our effectiveness, reduce the trend toward federalization. 
Finally, we must have a focus on professionalism, integrity, 
and accountability.
    Now, it is up to the Congress how many of the specific 
suggestions we have made in our more lengthy report it wishes 
to push forward, but I think all five of those principles of 
concern need in some way to be addressed.
    Mr. Gallegos. Mr. Chairman, I would echo the sentiments of 
Professor Dahlin. I think Executive Order 11396 creating the 
responsibility for the Attorney General is the biggest step to 
really consolidating the efforts and the coordination of 
Federal law enforcement.
    While I agree with the chairman that the other principles 
have to be taken into consideration, I think this would be a 
tremendous step to really reducing the duplication of effort 
and really consolidating law enforcement as it should be.
    Mr. Sanders. Mr. Chairman, I think we are all saying 
basically the same thing that the package of recommendations 
are intertwined and irretrievably connected, and I would select 
all of them.
    Senator Thurmond. Senator Sessions, do you have anything 
else you want to take up?
    Senator Sessions. Well, I was intrigued by the inspector 
general recommendation. That is consistent with the long-term 
suspicion or feeling I have had that you really need--the best 
investigations I have had, Judge Webster, within an agency came 
from the FBI. There is pressure on inspectors general to not 
embarrass the agency, to get people to resign perhaps and just 
go away. I hate to say that, but there is not the intensity of 
interest of actually having a case go to trial and have that 
deterrence and justice that comes from a public official who 
has been mismanaging or stealing. So if we could separate those 
roles of auditing from criminal prosecutions, I think we might 
be better off, and I share that.
    Again, Mr. Chairman, I think this report is very valuable. 
We simply have to consider how we can better produce law 
enforcement in America at less cost and a better product, to 
avoid duplication, counter-productivity, sometimes actual 
hostility between agencies, sometimes unbridled competition, 
such as over the gun-tracing thing. Those things could be done 
better if we had stronger leadership.
    It ultimately will come down to having an Attorney General 
and high officials who have a passion for producing excellence. 
If you give the power to the Attorney General and the Attorney 
General is not interested or doesn't even have a Criminal 
Division chief for 18 months and is not interested in that and 
focused it, then you are not going to get the productivity we 
need. Perhaps that is something we need to look at in 
confirmations in the future, is will this person try to honor 
the taxpayers' money and produce efficient and effective law 
enforcement agencies for America.
    Mr. Chairman, thank you for holding this. I have enjoyed it 
a lot. I respect this panel. I have known most of them for 
previous years. The report is of great value, and I think it is 
up to us now to wrestle with it and see if we can't improve law 
enforcement in America.
    Senator Thurmond. Were you the attorney general in Alabama 
or a prosecuting attorney?
    Senator Sessions. I was U.S. attorney for 12 years and 
attorney general for 2.
    Senator Thurmond. That experience has been very valuable to 
you.
    Senator Sessions. Thank you, sir.
    Senator Thurmond. Now, before closing, I would like to 
place into the record a statement by Senator Hatch, and also a 
statement by Senator Leahy.
    [The prepared statements of Senators Hatch and Leahy 
follow:]

               Prepared Statement of Senator Orrin Hatch

    Let me welcome the members of the Commission on the Advancement of 
Law Enforcement to our hearing this afternoon. I helped established the 
Commission in 1996 as part of the Hatch-Dole Anti-terrorism and 
Effective Death Penalty Act. I felt then that it was important to have 
an experienced panel of experts, from different law enforcement 
perspectives--federal, state and local--to examine our federal law 
enforcement structure in light of the changing environment of the 21st 
century. I feel even more strongly about that now, and I look forward 
to reviewing your report in greater detail and working with you as we 
explore ways to improve the federal government's role in protecting our 
citizens.
    I am eager to explore your recommendations for improving 
coordination and cooperation with state and local law enforcement 
agencies. In addition, it has become increasingly clear to me that 
cyber-crime and cyber-terrorism, both foreign and domestic, pose the 
most significant new challenge to law enforcement. I strongly agree 
that the tools and techniques that carried this nation through the 20th 
century will not suffice in the 21st. To that end, the Committee will 
closely examine these issues in the coming months to make sure law 
enforcement is not outflanked by criminal activity carried out through 
our new information technologies.
    The Commission's report also makes a number of recommendations for 
consolidation, some of which have been suggested before, such as the 
recommendation to combine the law enforcement functions of the ATF and 
DEA into the Federal Bureau of Investigation. I have long been open to 
the idea of consolidating ATF's enforcement functions within the 
Justice Department.
    In particular, I am eager to do what I can to improve the Clinton 
Administration's dismal record of enforcing our firearms laws. In 1994, 
Congress passed the Brady law which required background checks for gun 
purchases. In December 1998, the National Instant Check System became 
operational. As of 1999, more than 250,000 persons who cannot legally 
purchase a gun have been prohibited from purchasing a gun because of 
these background checks.
    Even though it is a federal felony to lie on a background check 
application for a gun purchase, the Clinton Administration rarely 
prosecutes these cases. Of the more than 250,000 persons who have been 
prohibited from buying a gun since 1994, there have reportedly been 
less than 200 referrals for prosecution. Just last month, the Denver 
Rocky Mountain News revealed that Colorado residents who lie on Brady 
background check applications are rarely prosecuted. I hope that the 
Justice Department will begin to prosecute Brady violations and will 
increase gun prosecutions generally.
    While the Administration continually tries to politicize the issue 
of crime, I believe we must put public safety ahead of politics. The 
American people deserve no less. I thank the distinguished 
Commissioners and their staff for all the hard work that has gone into 
this report. I and the Committee look forward to working on these 
issues.
                                 ______
                                 

             Prepared Statement of Senator Patrick J. Leahy

    The Report of the Commission on the Advancement of Federal Law 
Enforcement released earlier this week fulfills a congressional mandate 
issued as part of the Antiterrorism and Effective Death Penalty Act of 
1996. It has taken longer than the original two years anticipated in 
that mandate to reach this stage, but the observations and 
recommendations of the distinguished members of the Commission are no 
less timely. I want to thank each of the Commission members for their 
distinguished public service both in the past and in connection with 
this report.
    No nation is safe enough that it can afford sit back and believe it 
is adequately prepared to handle all possible threats to the public's 
safety. The United States should continually be updating its law 
enforcement resources and reevaluating the organization and goals of 
our Federal law enforcement efforts. While we may not all agree about 
specific recommendations, the report is an important contribution to 
making those ongoing efforts. I would like to comment briefly on three 
of the report's recommendations.
    First, the report recommends that enforcement of our firearms and 
explosives laws currently handled by the Bureau of Alcohol, Tobacco and 
Firearms and the enforcement responsibilities of the Drug Enforcement 
Administration be transferred to the Federal Bureau of Investigation. 
In previous Judiciary Committee hearings on the incidents at the Branch 
Davidian compound in Waco, Texas, I have raised real concerns about the 
continuation of the Bureau of Alcohol, Tobacco and Firearms.
    While I do not believe in change for the sake of change, I will 
keep an open mind to the suggestions of the Commission on reorganizing 
our Federal law enforcement agencies. Concentrating federal law 
enforcement powers not only under the Attorney General but also under 
Directors of the Federal Bureau of Investigation, who serve unique ten-
year terms and may not be appointed or accountable to a serving 
President, may strike some as putting too much power in the hands of 
one person.
    Furthermore, the Commission was created by Congress out of concern 
over the quality of federal law enforcement agencies in the aftermath 
of the tragedies at Ruby Ridge, Idaho, in 1992 and Waco, Texas, in 
1993. The conduct and role of the FBI in both those incidents has been 
rightly and strongly criticized in independent and congressional 
investigations. As the ongoing investigations by Special Counsel John 
Danforth and by Senator Specter suggest, the final chapter on the Waco 
incident has not yet been written. While the FBI has made important 
organizational changes since those two incidents, we should move 
cautiously before concentrating additional power in that single law 
enforcement agency.
    Second, I agree with the Commission's recommendation that we must 
focus additional effort on computer-related crimes. On July 1, 1999, I 
introduced S. 1314, the Computer Crime Enforcement Act, along with 
Senators DeWine and Robb. Our legislation would authorize a Department 
of Justice grant program to help States prevent and prosecute computer 
crime. Grants under the bill may be used to provide education, 
training, and enforcement programs for State and law enforcement 
officers and prosecutors in the rapidly growing field of computer 
criminal justice.
    Computer crime is quickly emerging as one of today's top challenges 
for state and local law enforcement officials. All 50 states have now 
enacted tough computer crime control laws. These state laws establish a 
firm groundwork for electronic commerce, an increasingly important 
sector of the nation's economy. Unfortunately, too many state and local 
law enforcement agencies are struggling to afford the high cost of 
enforcing their state computer crime statutes. Our legislation, the 
Computer Crime Enforcement Act, would help address the worsening 
threats we face from computer crime.
    Technology has ushered in a new age filled with unlimited potential 
for good. But the Internet age has also ushered in new challenges for 
federal, state and local law enforcement officials. Congress and the 
Administration need to work together to meet these new challenges while 
preserving the benefits of our new era. The Computer Crime Enforcement 
Act is a common sense solution that puts the responsibility of computer 
crime law enforcement back in the hands of the States. They are the 
ones who should be prosecuting these crimes.
    Finally, I agree with the Commission's recommendation that the 
Congress should restrain its impulse to federalize more local crime 
laws. I spoke on the floor of the Senate on March 2, 1999, about this 
issue after the release a year ago this month of the comprehensive 
report of the American Bar Association's Task Force on Federalization 
of Criminal Law, chaired by former Attorney General Edwin Meese. We 
should think carefully before federalizing crimes traditionally handled 
by the State and local enforcement authorities. Each time we federalize 
a crime, we are essentially telling our State legislatures, our State 
law enforcement officials, and our State prosecutors that they are 
insignificant.
    Every Congress in which I have served--I have served here since 
1975--has focused significant attention on crime legislation. No matter 
which party controls the White House or either House of Congress, the 
opportunity to make our mark on the criminal law has been irresistible. 
In fact, more than a quarter of all the Federal criminal provisions 
enacted since the Civil War have been enacted since 1980 and more than 
40 percent of those laws have been created since 1970.
    In fact, at this point the total number is too high to count. The 
best that the Meese Task Force could do was estimate the number of 
Federal crimes to be over 3,300. Even that does not count the nearly 
10,000 Federal regulations authorized by Congress that carry some sort 
of sanction.
    Federalizing criminal activity already covered by State criminal 
laws that are adequately enforced by State and local law enforcement 
authorities raises three significant concerns, even if the Federal 
enforcement authority is not exercised.
    First, dormant Federal criminal laws may be reviewed at the whim of 
a Federal prosecutor. Even the appearance--let alone the actual 
practice--of selectively bringing Federal prosecutions against certain 
individuals whose conduct also violates State laws, and the imposition 
of disparate Federal and State sentences for essentially the same 
underlying criminal conduct, offends our notions of fundamental 
fairness and undermines respect for the entire criminal justice system.
    Second, every new Federal crime results in an expansion of Federal 
law enforcement jurisdiction and further concentration of policing 
power in the Federal government. Americans naturally distrust such 
concentrations of power. That is the policy underlying our posse 
comitatus law prohibiting the military from participating in general 
law enforcement activities. According to the Meese Task Force, the 
ranks of Federal law enforcement personnel grew a staggering 96 percent 
from 1982 to 1993 compared to a growth rate of less than half that for 
State personnel. The Task Force correctly noted in its report that: 
``Enactment of each new federal crime bestows new federal investigative 
power on federal agencies, broadening their power to intrude into 
individual lives. Expansion of federal jurisdiction also creates the 
opportunity for greater collection and maintenance of data at the 
federal level in an era when various databases are computerized and 
linked.''
    Finally, and most significantly, Federal prosecutors are simply not 
as accountable as a local prosecutor is to the people of a particular 
town, county or State. I was privileged to serve as a State's Attorney 
in Vermont for eight years and went before the people of Chittenden 
County for election four times. They had the opportunity at every 
election to let me know what they thought of the job I was doing.
    By contrast, Federal prosecutors are appointed by the President and 
confirmed by the Senate, only two Members of which represent the people 
who actually reside within the jurisdiction of any particular U.S. 
Attorney. Federalizing otherwise local crimes not only establishes a 
national standard for particular conduct but also allows enforcement by 
a Federal prosecutor, who is not directly accountable to the people 
against whom the law is being enforced. The Meese Task Force warned 
that the ``diminution of local autonomy inherent in the imposition of 
national standards, without regard to local community values and 
without regard to any noticeable benefits, requires cautious 
legislative assessment.''
    I thank the members of the Commission for coming to testify before 
the Committee today. Their hard work and dedication to making law 
enforcement efforts in the United States as organized and prepared as 
possible are commendable and constructive. I look forward to discussing 
these important issues with them.

    Senator Thurmond. Now, we will keep the record open for 
about one week for follow-up questions or for additional 
materials to be placed in the record.
    Senator Sessions, do you have anything else?
    Senator Sessions. No, sir.
    Senator Thurmond. Now, I want to thank all of you witnesses 
for attending and giving the fine testimony you did. Your 
presence here and your testimony is most valuable not only to 
help us but for the common good. We thank you again for your 
presence and your good work, and wish you well.
    We now stand adjourned.
    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


      Responses of the Commission to Questions From Senator Leahy

    Question 1A. Computer crime is quickly emerging as one of today's 
top challenges for State and local law enforcement officials. All 50 
States have now enacted tough computer crime control laws. 
Unfortunately, too many State and local law enforcement agencies are 
struggling to afford the high cost of equipment and training to enforce 
these statutes. How does the Commission recommend that Congress address 
this problem and enhance law enforcement's ability to enforce State 
computer crime laws?
    Question 1B. While the Commission has refrained from opining about 
pending legislative proposals, in light of the Commission's 
recommendation against further federalizing crime, please explain 
whether the approach of S. 1314, the Computer Crime Enforcement Act, 
which would create a grant program for State and local law enforcement 
agencies to enhance their technology and training to combat computer 
crime, respects the appropriate role of State and local law 
enforcement?
    Answer. The Commission strongly agrees that computer crime is 
rapidly emerging as one of the top challenges for State and local law 
enforcement. Indeed, the Commission raises the specter of cybercrime in 
its opening sentence in the Introduction to the report (page 15).
    We note on the same page that ``Cybercrime can assault any county's 
physical and information infrastructure.'' In sections on 
cyberterrorism (page 69) and on international cybercrime (page 75), we 
analyze the implications of the very serious subject.
    In question 1A, you ask how Congress might address this problem and 
enhance the ability of States to enforce their computer-crime laws. We 
suggest:

<bullet> A Federal program of grants, technical, and training to States 
        to help them develop and expand their capability and capacity 
        to enforce computer-crime laws;
<bullet> Federal research and development to find way to cope with this 
        kind of highly complicated criminal activity; and
<bullet> Use of Federal ability to coordinate law enforcement 
        activities across several States, which may be necessary to 
        assist States in preventing, investigation, and prosecuting 
        computer crime.

    These kinds of activities are entirely proper for the Federal 
Government provide strong support to States while limiting Federal 
intrusion, and place responsibility and accountability at the 
appropriate level of government.
    In question 1B, you ask for the Commission's views on the approach 
of S. 1314, the Computer Crime Enforcement Act, which would create a 
grant program for State and local law enforcement agencies to enhance 
their technology and training to combat computer crime. Does this 
approach respect the appropriate role of State and local law 
enforcement?
    The Commission's answer is yes, this approach does respect the role 
of State and local law enforcement. As we state in our answer to 
Question 1A, a grant program as envisioned in S. 1413 is consistent 
with concepts of Federalism that the Commission believes should guide 
Congress in enacting legislation affecting State and local law 
enforcement.

    Question 2. The Child Custody Protection Act, S. 661/H.R. 1218, 
would establish a new Federal criminal prohibition against transporting 
a minor across State lines for the purpose of avoiding a law where the 
minor resides respecting parental involvement in the minor's decision 
to obtain an abortion. A consequences of this law would be that Federal 
investigative and prosecutorial resources would be employed to enforce 
State parental involvement laws, including in States without such laws 
but where a minor may travel to obtain an abortion. Is this proposal 
consistent with the principles against the federalization of crime that 
the Commission articulated in its report?
    Answer. As a general rule, the Commission believes that if a State 
has the power to prosecute a crime in that State, it should do so.
    In cases where both a Federal and State interest can be 
established, the Commission proposes a thorough study of the 
implications of making the crime a Federal crime. Under the 
Commission's proposed Federalization Prevention Act, Congress and the 
Executive Branch would be required to provide a Law Enforcement Impact 
Statement in addition to the current budget impact statement. 
Obviously, in the example you provide, important issues to be addressed 
in the impact statement would be the extent to which such a law would 
use Federal investigative and prosecutorial resources and the effect of 
such usage both on State and local law enforcement and on the ability 
of Federal law enforcement to focus on cybercrime, cyberterrorism, and 
other emerging Federal law enforcement issues. That analysis of the 
impact of the legislation under consideration would provide Congress 
with information at the beginning of the legislative process. Over the 
5 years following enactment, Congress would be able to consider the 
value of the criminal statute, and the statute would expire after 5 
years under a sunset provision unless Congress extends it.

    Question 3. As the Commission's report points out, the Federal 
Government exercises concurrent jurisdiction over many crimes 
traditionally handled by State and local law enforcement. In a number 
of cases in which concurrent jurisdiction exists, the Federal 
Government has sought or is seeking the death penalty in States that do 
not permit the imposition of such penalty, despite Department of 
Justice guidelines that in cases of concurrent jurisdiction, ``a 
Federal indictment for an offense subject to the death penalty will be 
obtained only when the Federal interest in the prosecution is more 
substantial than the interests of the State of local authorities.'' In 
order to minimize Federal forum-shopping and respect more fully the 
views of State residents and voters on the issue of the death penalty, 
would the Commission support a proposal requiring the Attorney General 
or her designee to certify, before a Federal death penalty may be 
sought, that (1) the State does not have jurisdiction or refuses to 
assume jurisdiction over the defendant; (2) the State has requested 
that the Federal Government assume jurisdiction; or (3) the offense 
charged clearly invokes specific Federal interests, including crimes of 
genocide; terrorism; use of chemical weapons or weapons of mass 
destruction; destruction of aircraft, trains, or other 
instrumentalities or facilities of interstate commerce; hostage taking; 
torture; espionage; treason; the killing of certain high public 
officials; or murder by a Federal prisoner?
    Answer. This question raises issues involving concurrent Federal 
and State jurisdiction, specifically cases where the Federal Government 
seeks a death penalty in States that do not permit imposition of the 
death penalty. You cite Department of Justice guidelines to the effect 
that ``a Federal indictment for an offense subject to the death penalty 
will be obtained only when the Federal interest in the prosecution is 
more substantial than the interests of the State or local 
authorities.'' You ask if the Commission would support a proposal that 
requires the Attorney General or her designee to certify, before a 
Federal death penalty may be sought, that (1) the State does not have 
jurisdiction or refuses to assume jurisdiction over the defendant; (2) 
the State has requested that the Federal Government assume 
jurisdiction; or (3) the offense charged clearly involves specific 
Federal interests, including crimes of genocide; terrorism; use of 
chemical weapons or weapons of mass destruction; destruction of 
aircraft, trains, or other instrumentalities or facilities of 
interstate commerce; hostage taking; torture; espionage; treason; the 
killing of certain high public officials; or murder by a Federal 
prisoner.
    The Commission's answer is yes, we would support such an approach. 
What this question proposes is consistent with our views about keeping 
lines of jurisdiction and authority clear between Federal and State law 
enforcement. This approach ensures that cases with serious Federal 
implications can be prosecuted in Federal courts, while those more 
weighted toward State interests are prosecuted in State courts. An 
example of how this might work can be seen in the current Federal 
prosecution for murder in the Starbuck's robbery in Washington, DC; the 
Attorney General has approved a prosecution that seeks the death 
penalty, even though the death penalty is not permitted under District 
of Columbia criminal law.
    We also note that the issues raised in this question are 
appropriate matters to be considered in the Law Enforcement Impact 
Statement that we mention above.
      Responses of the Commission to Questions From Senator Biden

    Question 1. There has been a great deal of debate about forcing the 
U.S. Attorneys to prosecute gun cases with a Federal nexus. Is this an 
example of the strain on the system that is of concern to the 
Commission?
    Answer. Indeed, there has been a great deal of debate on the 
ability or inability of U.S. Attorneys to prosecute Federal gun cases 
in all their manifestations. For example, on October 21, 1999, Deputy 
Attorney General Eric Holder said prosecution by U.S. Attorneys of all 
400,000 people who filed false statements [on gun purchases] would 
``overwhelm the system.'' In other instances, low rates of prosecution 
have already been identified by the Executive Office of the United 
States Attorney:

<bullet> Prosecutions under the Brady Act (background checks);
<bullet> Prosecutions for the transfer of a handgun or ammunition to a 
        juvenile;
<bullet> Possession of a handgun by a juvenile;
<bullet> Prosecutions of possession or discharge of a firearm in a 
        school zone; and
<bullet> Prosecutions for possession of firearms by a juvenile at 
        school.

    The Commission is concerned about these types of strains on the 
Federal system. It is for this reason the Commission proposed the 
Federalization Prevention Act. Under that Act, proposed legislation 
would be examined, before passage, to determine its impact on the 
Federal system--and reexamined after 5 years to ascertain whether it is 
working as expected.

    Question 2. You indicate in your report that ``although technically 
Constitutional, there are public perception problems related to double 
jeopardy.'' I know that the Department of Justice has a policy on 
this--it's called the Petite Policy (the Petite Policy is the process 
by which Justice decides which cases to prosecute even though the 
States already have done so). And, I also know that they prosecute 
cases after a State has already done so only in rare cases and only 
with high-level Justice Department approval. Do you know of any 
specific examples of cases where someone was charged and brought to 
trial in both State and Federal courts that caused the type of public 
perception problem that you are alleging?
    Answer. The quoted phrase does not appear in the Commission 
Report's narrative on double jeopardy (see page 92). The Commission 
Report says, ``Equally troubling is the possibility that federalization 
threatens the concept of `double jeopardy' in a very real, but not 
unconstitutional manner.''
    The Commission relied on the content of the ABA's 1998 \1\ study 
and analysis of the double jeopardy issue on the following point: a 
behavior may violate both State and Federal law. Under the concept of 
dual sovereignty (the State and the Federal Government), the Supreme 
Court has said that the same offense can also be viewed as a different 
offense for Constitutional purposes. But as the Senator notes, the DOJ 
Manual is guided by the Petite policy in these instances, and instances 
of this type of prosecution are extremely low, perhaps several dozen a 
year and only when there is a compelling Federal interest support dual 
or successive Federal prosecution.
---------------------------------------------------------------------------
    \1\ Task Force on Federalization of Criminal Law (1998), The 
Federalization of Criminal Law: Defending Liberty, Pursuing Justice, 
Washington, DC: American Bar Association.
---------------------------------------------------------------------------
    The Commission Report does not allege a ``public perception 
problem.'' The Commission's public opinion survey did not ask a 
specific question on double jeopardy. The Commission relied on its 
collective experience when it noted that the ``widespread application 
[of double jeopardy] could strike many Americans as unfair.''
    The Commission's intent was to draw attention to potential 
consequences of a widespread applicability of double jeopardy cases 
that may go beyond Petite guidelines. For example:

<bullet> The distinction, or appearance of dual punishment, between an 
        excessive financial penalty payment and criminal prosecution;
<bullet> Cases where the same offense can violate separate State and 
        Federal laws (for instance, the Rodney King cases--State 
        assault charges on the arresting officers versus Federal 
        charges that police officers violated King's constitutionally 
        protected right to be free from the use of unreasonable force 
        during arrest);
<bullet> Cases like that of Terry Nichols (Oklahoma bombing), who is 
        claiming that a State trial for first degree murder (160 
        counts) would constitute double jeopardy because he has already 
        been convicted in Federal court of eight counts of involuntary 
        manslaughter in the deaths of eight Federal agents; and
<bullet> A State court judge (Idaho) dismissed a State murder charge 
        against Kevin Harris (Ruby Ridge incident) after his acquittal 
        in Federal court of murdering a Federal agent. The judge 
        invoked the State's double jeopardy law, saying he could not be 
        tried again after his acquittal.

    Double jeopardy issues have the potential to strike the American 
public as unfair, depending on one's perspective on sensitive issues: 
being deprived of assets and being subjected to criminal punishment, 
race relations/civil rights, acts of terrorism and the demands for 
justice, etc. If double jeopardy issues might be seen as unfair, it is 
clear also that even for the legal profession, there is confusion. As 
then-Justice Rehnquist once said, ``* * * the decisional law in the 
[double jeopardy] area is a veritable Sargasso Sea which could not fail 
to challenge the most intrepid judicial navigator.'' Albernaz v. United 
States, 450 U.S. 333 (1981).

    Question 3. You indicate in your report that Title 18 of the 
Federal Criminal Code is ``unwieldy.'' Can you cite any examples of 
statutes that need to be modified or eliminated? Can you name me five 
Federal crimes that should not be Federal crimes and why?
    Answer. At this juncture, there are more than 3,000 Federal crimes 
on the books. Few crimes, no matter, how local in nature, are beyond 
the reach of Federal criminal jurisdiction, and the number of crimes 
deemed ``Federal'' continues to increase. The 1994 Crime Bill alone 
created two dozen new Federal crimes, including: driveby shootings; 
possession of handguns near a school; possession of a handgun by a 
juvenile; embezzlement from an insurance company; theft of a major 
artwork; and murder of a State official assisting a Federal law 
enforcement agency. Although many of these crimes are a threat to 
public safety, they are already outlawed by the States and need not be 
included in the Federal Criminal Code.
    As a result of the trend toward federalization, the Federal 
Government often becomes involved in cases that are better handled by 
local law enforcement personnel. Carjacking is another example of a 
crime that should never have been federalized. The Federal carjacking 
law was enacted in response to an atrocity that occurred in the State 
of Maryland. The law was unnecessary because most States already had 
carjacking laws and a crime designation to cover the offense. Other 
statues that fall into this category relate to school violence, 
disrupting rodeos, sale of drugs in school zones, and the transfer of 
guns in school zones.
    The Supreme Court took a stand on the last offense in United States 
v. Lopez when it declared the Gun Free School Zones Act of 1990 
unconstitutional. The Act made it aFederal offense for any person to 
possess a firearm at any place that the individual knows is a school 
zone. In Lopez, a State indictment was dismissed so that Federal 
charges could be brought, even though the State (like nearly all 
States) had laws that prohibit guns in or near schools.
    Our views on this subject were reinforced not only by the 1998 ABA 
study but also by the testimony of the expert witnesses who appeared 
before the Commission.

    Question 4. In your report you call for an external review of 
Federal law enforcement. Do you have concern that this is just going to 
add another layer of bureaucracy to a system that you are criticizing 
for being too bureaucratic?
    Answer. No. External review will not create a new bureaucracy 
review and accreditation are handled by the Commission on Accreditation 
of Law Enforcement Agencies, Inc. (CALEA), which already exists and 
was, in fact, created under a grant from the U.S. Department of 
Justice. Moreover, as the Commission reported (page 103), accreditation 
is a voluntary process of self-study and peer-review based on some 436 
law enforcement standards developed by law enforcement professionals 
around agency missions and mandates. Since CALEA began in 1979, some 
500 law enforcement agencies in the United States have been accredited 
through the program. The U.S. Marshals Service has already earned 
accreditation from CALEA and the Capitol Police are currently in the 
process of obtaining such accreditation.
    In addition, Federal crime laboratories are joining the American 
Society of Crime Laboratory Directors (ASCLAD), an organization of more 
than 400 directors of local, Federal, and international forensic 
laboratories. ASCLAD's primary interest is in achieving quality in the 
delivery of forensic science services by improving the quality of 
management practices in forensic laboratories. The FBI and, it is 
believed, DEA are already members. We believe that every Federal 
criminal forensics laboratory should be accredited based on scientific 
standards currently in place in professional laboratories around the 
country. Compliance will help build public and judicial confidence in 
laboratory findings, much like those found in State and local 
government.
    The Commission heard testimony on the value of external review and 
accreditation from several respected law enforcement professionals, 
including Jami St. Clair, President of ASCLAD, and Sylvester Daughtry, 
Jr., Chairman of CALEA.
    The Commission, in its report, recommends the creation of the 
Federal Law Enforcement Officer Training Board and the Interagency 
Coordination Board. If created, these boards will facilitate the 
coordination of policy development, operations, and methods for 
evaluating the efficiency of agencies. regarding the issue of oversight 
of citizens complaints, this is the responsibility of the Attorney 
General. The Congress must fulfill its oversight duties with respect to 
Federal agencies by ensuring that the Attorney General investigates and 
reports on citizen complaints.

    Question 5. You recommend that Executive Order 11396 (giving the 
Attorney General broad authority over all criminal matters) be updated 
to reflect new national and global realities. You also suggest that it 
be reissued so that the Attorney General becomes the focal point of 
Federal law enforcement. But, the Executive Order is quite clear 
regarding the Attorney General's authority. What can she do immediately 
to see that the order is carried out and that the problem of too many 
conductors leading too many orchestras is addressed? What can be done 
to help facilitate this process?
    Answer. Executive Order No. 11396 was signed by President Lyndon 
Johnson more than 30 years ago and has lain dormant since. As noted in 
our report, if the directive had been carried out, the Commission 
believes that many of the coordination problems that trouble Federal 
law enforcement today would have been put to rest.
    Because the Executive Order has lain dormant for so long, however, 
the Commission believes that attempting to implement it at this late 
date in the life of the current Administration would not be effective. 
In fact, given how long the Executive Order has been ignored, we 
believe its purposes can be realized only by reissuing and 
strengthening it to reflect the new global and international realities. 
As noted in our report, the revised executive Order should incorporate 
coordinating authority for the Attorney General that is as broad as the 
authority the Director of Central Intelligence has with regard to 
intelligence matters under Executive Order No. 12333. Specifically, the 
revised Executive Order No. 11396 should provide the Attorney General 
with explicit authority to:

<bullet> Act as the primary advisor to the President on law enforcement 
        matters;
<bullet> Develop and implement objectives and guidance for the law 
        enforcement community;
<bullet> Promote and ensure the development and maintenance of services 
        of common concern to Federal law enforcement agencies;
<bullet> Formulate and implement policies and procedures regarding law 
        enforcement;
<bullet> Ensure that the law enforcement community establishes common 
        security and access standards for managing and handling data 
        and intelligence;
<bullet> Ensure that programs are developed to protect information, 
        sources, informants, methods, and analytical procedures;
<bullet> Establish appropriate staffs, committees, and other advisory 
        groups to assist in the execution of the responsibilities of 
        the Attorney General;
<bullet> Monitor agency performance and, as necessary, conduct program 
        and performance audits;
<bullet> Provide for policies to ensure uniform procedures for 
        responding to citizens' allegations of misconduct on the part 
        of Federal law enforcement agencies or officers;
<bullet> Reduce unnecessary overlap or duplication among agency 
        programs and missions; and
<bullet> Submit an annual report to Congress about accountability, 
        citizens' complaints, and their resolution.

    In addition, as noted in our report, an Attorney General 
strengthened in the full exercise of the powers contemplated in the 
revised Executive Order No. 11396 will require advice and guidance on 
any number of matters. That is why the Commission also recommends the 
establishment of a permanent, independent, Interagency Advisory Board 
on Federal Law Enforcement. Such a board will make the Attorney 
General's increased authority more palatable to other Federal law 
enforcement agencies. It will also improve the quality of the decisions 
that the Attorney General makes in carrying out this increased 
authority.

    Question 6. You have suggested that the FBI become the sole 
criminal activity and national security agency. You have also suggested 
that significant portions of the Bureau of Alcohol, Tobacco and 
Firearms be merged into the FBI and that the Inspector General's 
Offices be consolidated. Do you suggest other mergers that are not 
contained in your report? What do you see as the most significant 
hurdles to these mergers? What will the mergers really mean off paper--
will there by layoffs of law enforcement officers? How would Congress 
oversight jurisdiction change?
    Answer. This multi-part question goes to the heart of the 
consequences of proposing mergers, consolidations, and elimination of 
Federal law enforcement agencies.
    This question raises issues that are the proper concern of the 
Commission's proposed permanent Interagency Advisory Board on Federal 
Law Enforcement and how it might operate. This 19-member board, made up 
of representatives of the 14 major law enforcement agencies examined in 
our report and five additional representatives from other Federal law 
enforcement agencies, would provide the Attorney General with advice in 
two areas: the needs of small agencies; and the growth and role of the 
function of the Inspector General. A principal focus of Interagency 
Advisory Board work would be to assess the effects of mergers, 
consolidations, and elimination of Federal law enforcement agencies. 
(Page 111.) The matter of Congressional oversight jurisdiction is, of 
course, an entirely different matter and one for Congress itself to 
consider.
    Before we address the questions, we wish to clarify and correct 
what appear to be two misapprehensions: First, at no time has the 
Commission advocated that the Federal Bureau of Investigation become 
the ``sole criminal activity and national security agency.'' On the 
contrary, the Commission greatly respects the missions, jurisdictions, 
capabilities, and personnel of the many Federal criminal justice and 
national security agencies that contribute so effectively to the safety 
and security of our citizens and our Nation. We do believe that greater 
effectiveness and efficiency can be affected through restructuring the 
Federal law enforcement community along the more functional lines that 
we suggest in our Recommendation I (page 108), but we do not recommend 
that the FBI become the sole criminal justice agency. Likewise, we 
believe that far more effective use can be made in Federal, State, and 
local law enforcement of intelligence gathered by the Nation's 
intelligence agencies. This use is particularly important in light of 
the spread of global crime, cybercrime, and terrorism. We do not 
recommend that the FBI become the sole national security agency.
    Second, at no time does the Commission recommend that Offices of 
Inspectors General be ``consolidated.'' We believe that the current 
structure of the OIGs should be examined with an eye toward 
restructing, and that such a review might turn up cases in which some 
offices could be merged. Congress might request that the Interagency 
Advisory Board undertake such a review and provide Congress with its 
recommendations.
    The Commission will now address this multi-part question in order:

    Question 6A. Does the Commission suggest other mergers that are not 
contained in its report?
    Answer. No. Although the Commission does not recommend merges not 
contained in its report, we do recommend that Congress and the 
President look toward a long-term restructuring that would rationalize 
and realign Federal law enforcement and security agencies in the 
Executive Branch into five broad functional areas (pages 110-111):

<bullet> Criminal Activity and National Security;
<bullet> Protective and Border Security;
<bullet> Financial and Regulatory Enforcement;
<bullet> Corrections Enforcement; and
<bullet> Resource Enforcement.

    This realignment would doubtless involve mergers of agencies. For 
example, the Commission suggests an incorporation of the functions of 
the Bureau of Land Management and the Fish and Wildlife Service (now in 
the Department of the Interior) with existing law enforcement functions 
from the Department of Agriculture. (Page 111.) Currently, three 
separate law enforcement agencies report to Congress--Capitol Police, 
Government Printing Office Police, and the Library of Congress Police. 
In fact, if these three were consolidated, there would only be one 
chief of police, one set of hiring and training standards and policies, 
integrated communications systems, and reduction of bureaucracy.

    Question 6B. What does the Commission see as the most significant 
hurdles to these mergers?
    Answer. The hurdles to mergers of Federal law enforcement agencies 
are parochialism and protection of bureaucratic turf. The problems of 
overlapping jurisdictions, duplication of effort, and multiplicity of 
the same functions have been well studied by other groups before us, 
including Vice President Al Gore's Performance Review (please see our 
answer to Questions 8 and 11, below). In fact, every independent review 
that we could find arrived at the same conclusions that we did about 
consolidating agencies. These other groups have understood, as we do, 
that existing agencies, and their Congressional oversight committees, 
are reluctant to give up their territory or their power.
    We also recognize the difficulty that Congress faces in addressing 
the different agency authorizations. Congress looks at Federal law 
enforcement agencies department by department in the various 
authorization bills. Committee consideration of this legislation is 
also based on agency, not function. We address this dimension in 
Question 6D.

    Question 6C. What will these mergers really mean off paper--will 
there be layoffs of law enforcement offices?
    Answer. No. The Commission believes that there is plenty of 
criminal justice work to do, and that Federal law enforcement personnel 
levels should not be reduced. We do recommend some shifts in personnel 
and reviews of existing structures to obtain ``more bang for the buck'' 
in Federal law enforcement. But we have not suggested and do not now 
suggest any layoffs. The Commission heard testimony that actually more 
officers are needed, especially by the agencies that perform patrol and 
other uniform services.

    Question 6D. How would Congressional oversight jurisdiction change?
    Answer. In some cases, Congressional oversight jurisdiction would 
change significantly. Committees and Subcommittees charged with 
oversight of Federal law enforcement agencies that were merged have to 
reallocate oversight responsibilities. Examples are the transfer of law 
enforcement functions of the Bureau of Alcohol, Tobacco, and Firearms 
from the Department of the Treasury to the FBI, and the merger of the 
Drug Enforcement Administration into the FBI.
    The effect on Congressional oversight should not be minimized. It 
could be difficult to accomplish. Just a few years ago, however, 
Congress itself reorganized its Committees with new functions, new 
oversight jurisdictions, and even newnomenclature--all along more 
functional and less traditional lines. The same could be done here.

    Question 7. We do have an agency that is supposed to streamline and 
coordinate drug policy--and that agency is the Office of National Drug 
Control Policy. I fought for 10 years to get that office funded. Have 
you consulted them regarding streamlining and who is best equipped to 
take on these tasks?
    Answer. In Appendix H. Acknowledgments of its final report, the 
Commission states: ``Unfortunately, a few persons, including some heads 
of Federal law enforcement agencies, declined the Commission's 
invitation to testify, thus depriving the Commission--as well as 
Congress and the American public--of valuable and useful information 
for this report.'' Although the Commission invited the head of the 
Office of National Drug Control Policy or his representative to appear 
before it numerous times, all of its invitations were repeatedly, and 
adamantly, declined.

    Question 8. Why not just take the FBI's drug crime jurisdiction 
away? Is there really a significant difference between putting the DEA 
under the FBI--or having both under the general umbrella of Justice?
    Answer. Your question poses the alternative to the Commission's 
recommendations that drug crime jurisdiction be moved from the Drug 
Enforcement Administration to the Federal Bureau of Investigation. Why 
not just remove drug crime jurisdiction from the FBI and place it in 
DEA--or at least place both ``under the general umbrella of Justice''?
    Removal of drug crime law enforcement responsibilities, such as 
they exist, from the FBI to DEA would make no sense. A large number of 
operational and administrative activities that support law enforcement 
prevention, identification, investigation, and other efforts within the 
FBI would have to be duplicated within DEA. The transfer of drug crime 
jurisdiction from the FBI to DEA would make matters far worse than they 
are now--all operational activities and support services are now 
duplicated within DEA for the single purpose of drug law enforcement. 
(Report pages 110-115.)
    Quite to the contrary, one reason for moving DEA functions to the 
FBI is to provide DEA's drug law enforcement activities with the whole 
range of support capability that the FBI brings to the table. The 
advent of cybercrime and transnational crime necessitates a closer 
working relationship between agencies. A consolidated FBI, DEA, and ATF 
will absolutely facilitate the dismantling of criminal operations and 
terrorist cells because more effective investigations are best handled 
and coordinated within one agency.
    Please note that, to ensure that drug enforcement activities 
continue to have high visibility and access to law enforcement 
officials at the highest levels, the Commission believes that this 
newly transformed function should be headed by a senior official who 
reports directly to the Director of the FBI. (Footnote 111.)
    Other thoughtful observers have arrived at the same recommendation 
that the Commission makes. In the early 1980s, when William French 
Smith was Attorney General, Rudolph W. Guliani, then Associate Attorney 
General, oversaw a study that recommended the merger of the DEA into 
the FBI. In 1993, moreover, Vice President Al Gore made the same 
recommendation in this report, ``Red Tape to Results.'' (Page 115 and 
footnotes 112 and 117.)
    The Commission believes that removal of drug law enforcement 
responsibilities--accompanied by budget, statutory authority, and 
personnel--from DEA to the FBI, in a new separate division, would 
reduce unnecessary overlap and duplication among agency activities. The 
other way around, the merger would increase overlap and duplication.
    Finally, you ask about the difference between moving DEA under the 
FBI or leaving both ``under the general umbrella of Justice.'' The 
Commission believes that the differences are very great. First, by 
leaving both agencies under the general umbrella of Justice, 
duplication and redundancy would continue and likely grow; DEA will 
need to build out more capability that it now lacks and that already 
exists in the FBI. Second, sharing of intelligence, planning for 
coordinated activities, and operational cooperation in and control of 
field operations would continue to be accomplished through the Attorney 
General's office, because both the Director of the FBI and the 
Administrator of DEA report to the Attorney General. The Commission 
believes that this sharing, coordination, and cooperation will be 
accomplished more effectively through a senior official (namely, the 
Director of the FBI) who is more accessible, closer to the field, and 
more conversant on a daily basis with activities in both the FBI and 
the newly reconstituted DEA.
    The Commission quoted, with approval, the assessment given in the 
Gore report cited above:

          * * * a drug case may involve violations of financial, 
        firearms, immigration and customs laws, as well as drug 
        statutes. Unfortunately, too many cooks spoil the broth. 
        Agencies squabble over turf, fail to cooperate, or delay 
        matters while attempting to agree on common policies. (Page 
        114)

    The Commission recommendation is aimed at reducing the number of 
cooks.
    Incidentally, the Commission believes that the drug criminal law 
enforcement should, under any plan for reorganization, remain within 
the Justice Department. Congress may place other Federal programs aimed 
at reducing the illegal drug problem in the United States in other 
Federal agencies, especially the Department of Health and Human 
Services. Those programs may relate to health and social aspects of the 
problem, but programs relating to criminal law enforcement should 
remain solidly within the Department of Justice. Indeed, in a message 
to Congress in 1968, President Lyndon Johnson recognized to his 
dissatisfaction that drug enforcement activities were split at that 
time between the Department of the Treasury and the Department of 
Health, Education, and Welfare, based on the type of drug violation 
involved (whether marijuana or LSD). He proposed consolidating drug 
enforcement within the Justice Department, where it very properly 
resides today.

    Question 9. Your report suggests that we ``ensure that the 
legitimate needs of law enforcement agencies to override encryption 
systems are balanced by judicial supervision to protect the privacy and 
civil liberties of civilians.'' Of all the different proposals that 
have been put forth over the past few years, is there one plan that you 
believe should be adopted?
    Answer. By one count, the Electronic Privacy Information Center 
listed more than 50 bills in Congress under the rubric of tracking 
privacy, speech, and cyber-liberties as of September 1999. The 
Commission could not evaluate these legislative proposals and is not in 
a position to knowledgeably recommend one over another. It leaves that 
to the professionals in this area. The Commission does, however, 
believe that whatever proposal is finally passed must meet the 
legitimate needs of law enforcement while protecting the privacy and 
civil liberties of private citizens. To these ends, we suggest the 
following general guidelines for such legislation:

<bullet> Balance resources between prosecution and protection;
<bullet> Educate people on how to protect their systems;
<bullet> Promote development of capabilities of State consumer 
        protection agencies;
<bullet> Encourage industry to improve its own security;
<bullet> Encourage the Federal Government to protect its own systems;
<bullet> Encourage industry to develop a clearinghouse of reliable 
        information, consumer software, firewalls, and other technology 
        to protect systems;
<bullet> Train State and local prosecutors to prosecute cyber 
        violators, but coordinate with the FBI, not the Department of 
        Commerce, on source detection nationally and internationally;
<bullet> Relegate the Federal/FBI role to cases involving national 
        security and substantial national economic interests;
<bullet> Enact Federal legislation with stiff penalties for 
        unauthorized selling of personal information;
<bullet> Promote policies that are not intrusive on personal systems by 
        government; and
<bullet> Avoid a knee-jerk barrage of compartmentalized legislation. 
        Instead, get serious and develop a coherent plan.

    In addition, the Commission wants to stress the importance of 
providing additional funds for research and technology to deal with 
terrorist threats. To take but one example: encryption of information 
by criminals presents serious threats to public safety. Encryption may 
be used by terrorists (or by drug lords) to communicate their plans in 
secret, or to maintain records in a form that frustrates search 
warrants and wiretap orders. The Government and the private sector must 
proceed together with energetic efforts to protect the legitimate needs 
of citizens and businesses for electronic communication and electronic 
commerce, while preserving Government's legitimate need to gain access 
to data and information as part of legally authorized search 
procedures.
    In similar fashion, electronic commerce, ``smart'' cards, and 
Internet trading are fast becoming established as standard practice for 
financial and telecommunications services. Shifting from paper money to 
its electronic equivalents present serious new international challenges 
for law enforcement at all levels. Additional research focusing on the 
vulnerability of these emerging technologies to terrorism and 
international crime needs to be undertaken.
    Finally, the Commission notes that the Information Age brings with 
it new threats to national security and to a wide variety of critical 
public and private services. As recent analyses from the Center for 
Strategic and International Studies (CSIS) point out, the real 
possibility for an ``electronic Waterloo'' exists if public officials 
do not pay sufficient attention to threats to the Nation's information 
security. The Commission endorses the CSIS report and calls for the 
development of national security policies that respond effectively to 
the emerging threat of cyberterrorism and cybercrime. At the same time, 
the Commission is aware of recent criticisms that policies governing 
cybersecurity at times appear to be pursued without explicit 
consideration of potential threats to privacy and civil liberties. Law 
enforcement officials must understand that the techniques, procedures, 
and technologies at issue here are so powerful that Federal agencies 
must be alert to public anxieties about the potential for abuse, no 
matter how remote that potential may be.

    Question 10. You suggest that a 5-year sunset provision be adopted 
so that all crimes defined as Federal expire after 5 years. What public 
policy would this facilitate? How would you draw the line and make a 
distinction between what crimes should have a sunset provision?
    Answer. This provision would facilitate several public policies. 
First, it would support the Constitutional principle of Federalism 
itself by helping to ensure a reasoned division ofresponsibility 
between the Federal Government and State governments. Second, this 
provision would help promote respect for the rule of law by helping to 
limit Federal law enforcement efforts to those areas that clearly can 
be seen to be matters requiring the energies of Federal law enforcement 
agencies. Under this provision, we are more likely to have vigorous 
Federal enforcement of the laws that can withstand this scrutiny, 
whereas under our current system Federal laws are passed but often not 
enforced to any great degree. Such ``hollow laws'' breed disrespect for 
the rule of law. Third, for the reasons just noted, this provision will 
advance the public policy of effectiveness in enforcement. Fourth, a 
more rational division of labor between Federal and State law 
enforcement efforts will be more efficient as well. Finally, by 
limiting Federal law enforcement's involvement in areas better left to 
State and local law enforcement, Federal law enforcement will be freed 
to pursue the very serious national and transitional criminal activity 
that pose an increasing risk to the safety and security of our 
citizens.
    As to how to draw the line to determine what crimes should have a 
sunset provision, the Commission believes that enacting a new 
Federalization Prevention Act that requires the Congress and the 
Executive Branch to provide a Law Enforcement Impact Statement--in 
addition to the existing budget impact statement--is one important way 
to get to this issue. Additionally, the sunset provision of this new 
act would ensure that newly enacted statues meet their intended 
purposes and that:

<bullet>  The statutes do not cause adverse financial or other burdens 
        to State, local or even Federal law enforcement agencies and 
        personnel;
<bullet>  The statutes are in fact necessary and not simply promulgated 
        to address a crime that is in the public mind but is already 
        addressed at the State level; 
        and/or
<bullet>  The statutes do not deal with a crime that is no longer an 
        issue.

    Question 11. You have suggested that there are too many Federal 
police forces, and cite as an example the fact that Congress and the 
Supreme Court have different forces even though they are across the 
street from each other. What should be done to address this problem?
    Answer. This question raises the issue of the proliferation of 
Federal police forces. The Commission does not take a simplistic view 
of this matter; we do not think that there are simply too many Federal 
police forces.
    Rather, the Commission recommends a review of the number of Federal 
police forces with an eye to consolidating agencies where appropriate. 
One opportunity for consolidation might involve those forces that 
operate directly under Congress, namely the U.S. Capital Police, the 
Library of Congress Police, and the Government Printing Office Police. 
These agencies might be merged into one agency, with a goal of 
eliminating duplication, achieving savings in resources, reducing the 
number of separate bureaucracies, and increasing operational 
efficiency.
    The Commission thinks that this kind of merger offers an ideal 
example of how its proposed permanent Interagency Advisory Board on 
Federal Law Enforcement might operate. This 19-member board, made up of 
representatives of the 14 major law enforcement agencies examined in 
our report and five additional representatives from other Federal law 
enforcement agencies, would provide the Attorney General with advice in 
two areas. One of those areas would involve the need for many small 
Federal police agencies, including those on Capitol Hill. (Page 111.)
    The Commission noted, as your question correctly states, that 
Congress and the United States Supreme Court have different police 
forces even though they are located across the street from each other. 
The Commission hastens to point out that it did not mean to imply a 
merger between these police forces; to do so might raise Constitutional 
issues of separation of powers.
    As to the merger of Federal police agencies that report to Congress 
or of those within the Executive Branch, concerns about separation of 
powers do not arise. The Commission recommends a review by the 
Interagency Advisory Board to eliminate duplication, to set common 
standards for police, and to achieve more efficiency. Many States and 
municipal jurisdictions have undertaken this effort, and have done a 
good job.
                 Additional Submissions for the Record

                                 ______
                                 
commission on the advancement of federal law enforcement; nation faces 
        challenging crimes in the new century, commission warns
    Washington.--Global crime, cybercrime, and terrorism in new and 
increasingly dangerous forms will threaten the safety of Americans and 
the national security of the United States early in the next century, a 
Congressional Commission warned today. In the past two months alone:

<bullet> Terrorists who highjacked a civilian airliner were not 
        apprehended and may commit other terrorist acts in the future.
<bullet> An individual crossed our northern border with what were 
        described as powerful bomb-making materials. U.S. and Canadian 
        authorities are investigating a link to others with possible 
        terrorist connections.
<bullet> Much concern was expressed about terrorism and computer crime 
        at the millennium. Fortunately, no serious incidents took 
        place.
<bullet> The President continues initiatives to fight cyber-terrorism 
        and to improve law enforcement capabilities of the Bureau of 
        Alcohol, Tobacco, and Firearms.
<bullet> Virginia Governor Gilmore's Commission, established by the 
        Congress, reportedly will conclude that the Nation is 
        vulnerable to terrorists armed with weapons of mass 
        destruction.

    Data gathered by the Commission on the Advancement of Federal Law 
Enforcement raises serious concerns about the readiness of the Federal 
Government to meet its responsibilities to protect Americans and the 
Nation, the Commission said in a report delivered to Congress today.
    ``The Nation must move now, on an urgent basis, to prepare to 
detect these criminal activities at the source, to counter them in all 
appropriate ways, and to protect Americans to every possible extent,'' 
the Commission said.
    Congress directed the Commission to explore such concerns as the 
coordination of Federal law enforcement agencies and cooperation 
between Federal agencies and their State and local counterparts. Global 
criminal cartels, cybercrime (computer-based crime), and terrorism 
challenge law enforcement agencies in this country at all levels of 
government, the Commission found. The Commission identified many areas 
in need of improvement in coordination and cooperation.
    Under Commission recommendations, a revamped Federal law 
enforcement structure would make the Attorney General responsible for 
coordinating all major Federal law enforcement policies and practices, 
giving her sweeping authority to focus the Nation's law enforcement 
resources on critical problems. Federal law enforcement is not 
sufficiently marshaled or focused on key issues, the Commission found.
    Law Enforcement functions of the Bureau of Alcohol, Tobacco, and 
Firearms, now part of the Department of the Treasury, would be moved to 
the Federal Bureau of Investigation. The entire anti-drug effort of the 
Drug Enforcement Administration would become a separate division of the 
FBI under the reorganization. Both the FBI and DEA are now part of the 
Department of Justice.
    ``Much of today's current structure is based on problems of the 
past, such as Prohibition,'' said Commission Chairman William H. 
Webster, a former Federal judge, Director of the FBI, and Director of 
Central Intelligence. ``The Nation critically requires a Federal law 
enforcement establishment that is ready to meet the crime problems of 
the future.''
    Those problems, the Commission said, are increasingly likely to 
involve global criminal enterprises, including terrorism, narcotics 
trafficking, and cybercrime, among others. At the same time, the 
Commission said that Congress should resist the tendency to 
``federalize'' more and more crimes. Most crime in the United States is 
local in nature, the Commission noted, and State local governments 
provide most law enforcement. Because its resources are limited, rather 
than focus on local crimes, Federal law enforcement should focus on 
crimes that are national and international in nature and that are 
otherwise designated as its responsibility under Federal law. It 
should, however, continue to provide technical and scientific support, 
including access to criminal justice databases, to State and local law 
enforcement agencies.
    ``The Nation needs and deserves a Federal crime-fighting force that 
knows its proper role,'' said Webster, ``operates in a highly 
coordinated way, shares information, is better trained, and makes much 
better use of high technology than is the case today.''
    Congress established the Commission in the Antiterrorism and 
Effective Death Penalty Act of 1996. With submission of its report, the 
Commission completed its work and expires at the end of February. 
Hearings on the report are expected in both the House and Senate.
    Copies of the Commission report can be purchased from the 
Government Printing Office, Superintendent of Documents, by calling 
202-512-1800 and asking for ``Law Enforcement in a New Century and a 
Changing World'' (Order No. 020-000-00276-0).
    The report also can be downloaded from the University of Arkansas, 
Criminal Justice Institute National Center for Rural Law Enforcement 
website at www.ncrle.net.
    For further information, please contact:

Honorable William H. Webster
Milbank, Tweed, Hadley & McCloy
Washington, DC
202/835-7550

Chief Robert M. Stewart
State Law Enforcement Division, State of South Carolina
Columbia, SC
803/737-9000

Professor Donald C. Dahlin
Department of Political Science, University of South Dakota
Vermillion, SD
605/677-6497

Gilbert G. Gallegos
National President, Fraternal Order of Police
Albuquerque, NM
505/344-3159

Robert E. Sanders
Punta Gorda, FL
941/575-2114.
                                 ______
                                 

  Fact Sheet--Commission on the Advancement of Federal Law Enforcement

    For the first time in recent history, a Congressional Commission 
set out to study the integration of widely disparate and often 
conflicting issues to strengthen the law enforcement fabric of the 
Federal Government while protecting democracy and the rights and 
liberties of individual citizens.
    The Commission on the Advancement of Federal Law Enforcement saw 
its role as one of calling the Nation's attention to the broadcast 
concerns in national and international law enforcement and urging it 
and its Federal law enforcement establishment to break down the 
barriers of institutional thinking and find new ways to approach the 
challenges of crime in the new century.
    In creating the Commission, Congress issued a broad mandate of 
issues for study. From the outset, the Commission determined that 
conducting an in-depth study of Federal law enforcement, with all of 
its complexities, was impossible within the mandated reporting period. 
Thus, it decided to synthesize the main issues that will distinguish 
law enforcement in the next century from law enforcement today.
    Global crime, cybercrime, and terrorism pose the new, emerging 
security threats to the Nation and challenge the Federal law 
enforcement community. The report of the Commission on the Advancement 
of Federal Law Enforcement is a call for an open mind, for a rethinking 
of current law enforcement approaches, for a willingness to move 
forward so that Federal law enforcement can safeguard the Nation's 
citizens and protect the Nation's security in the years to come.
                           commission mandate
    Section 806 of Public Law 104-132 (Antiterrorism and Effective 
Death Penalty Act of 1996) provided for the establishment of a five-
member Commission on the Advancement of Federal Law Enforcement and 
mandated that the Commission report its findings to Congress and the 
general public within 2 years.
    The Commission charter directed it to examine 10 factors related to 
Federal law enforcement:

<bullet> Federal law enforcement priorities for the 21st century, 
        including capabilities to investigate and deter terrorism;
<bullet> The manner in which significant Federal criminal law 
        enforcement activities have been conceived, planned, 
        coordinated, and executed;
<bullet> Standards and procedures of Federal law enforcement, including 
        their uniformity and compatibility;
<bullet> The investigation and handling of specific Federal criminal 
        law enforcement cases, selected at the Commission's direction;
<bullet> The need for the current number of Federal law enforcement 
        agencies and units;
<bullet> The location and efficacy of the office with direct 
        responsibilities for interagency coordination--aside from the 
        President of the United States;
<bullet> The degree of assistance, training, education, and other human 
        resource management assets devoted to enhancing 
        professionalism;
<bullet> The existence and efficiency of independent accountability 
        procedures;
<bullet> Coordination among law enforcement agencies with regard to 
        international crime; and
<bullet> Coordination of Federal law enforcement activities with those 
        of State and local enforcement agencies.

An additional charge in Section 806 authorized the Commission to 
examine any other matters it considered appropriate.
    The Commission wrestled with this complex and sweeping mandate 
througout its tenure, ever mindful that its deliberations were taking 
place in the shadow of the five recent major events that involved law 
enforcement--the bombings of American embassies in Kenya and Tanzania; 
the bombing of the World Trade Center in New York; the destruction of 
the Alfred P. Murrah Federal Office Building in Oklahoma City; the 
deadly inferno that ended the confrontation with Branch Davidians in 
Waco, Texas; and the tragic standoff at Ruby Ridge, Idaho. The 
specifics of the Commission's charge, and the larger issues in which 
they are embedded--issues of personal safety and security, freedom from 
unreasonable search and seizure and protection against domestic and 
foreign terrorism--affect every man, woman, and child in the United 
States.
    Over its 2-year tenure, it met more than 20 times and took verbal 
and sometimes written testimony from some 70 witnesses, including two 
members of President Clinton's Cabinet and numerous presidential 
appointees. Its work was also informed through several other sources of 
data. For example, at the direction of the Commissioners, staff--with 
assistance from the survey research firm, QS&A Research--conducted a 
nationwide public opinion survey. In addition, more than 140 leaders of 
Federal agencies with responsibilities in some facet of law enforcement 
were asked to respond to a 31-question survey prepared and administered 
by Commission staff. From the 37 completed survey responses received, 
staff prepared a detailed analysis of data from the 14 agencies 
considered to be the primary Federal law enforcement entities.
    In the main, the Commission's interest focused on agencies that 
employ ``1811 series'' employees--and other personnel with the 
authority to investigate, carry firearms, and make arrests.
    In addition, Commission staff conducted an extensive review of the 
literature on law enforcement, Federal law enforcement, and the 
administration of justice. Finally, the Commission contracted for 
papers on specific issues--such as terrorism, transnational crime, 
narcotics trafficking, and the nature and origins of Federal law 
enforcement in the United States--from the academic community. This 
combination of surveys, literature review, and academic papers 
represents one of the most extensive examinations of Federal law 
enforcement in recent history.
                               background
    The connection of the work of the Commission on the Advancement of 
Federal Law Enforcement to the well-being of the American people is 
direct and simple.
    The initial concept for the Commission was developed following the 
disasters at the Branch Davidian Compound and Ruby Ridge--events that 
raised serious questions about the quality of Federal law enforcement.
    The interests that motivated policy makers to launch the 
Commission's study varied, sometimes quite dramatically. Some 
policymakers wondered about the Federal Government's capacity to 
protect American citizens from foreign terrorists acting on U.S. 
shores. Others were concerned that policy on essential aspects of law 
enforcement, such as the use of deadly force, was either unclear or 
ignored, a situation fraught will peril for citizens and officers 
alike. Still others worried that too many Federal law enforcement 
entities had been created, making coordination among them, and with 
State and local law enforcement agencies, difficult, if not impossible. 
Almost certainly, just as many people were intent on using the two 
tragic incidents listed above, to criticize Federal law enforcement as 
were committed to examining any mistakes made to determine how to 
prevent similar tragedies in the future.
    All in all, the range of views that accompanied the initial 
conceptions of the Commission was disparate. Some were perceived--
fairly or unfairly--as charged with ideological overtonesfrom all sides 
of the political spectrum. As a consequence, when Section 806 was 
finally enacted, initial plans for the Commission's budget and term of 
office were cut back. Months passed before an appropriation for the 
Commission's work was enacted and almost 2 years went by before the 
full, five-member complement of Commissioners was appointed.
    In the years that intervened between the initial conception of the 
Commission and its authorization, funding, and creation, the United 
States passed a lethal watershed, witnessing one of the most brutal 
terrorist acts ever carried out on American soil--the destruction of 
the Alfred P. Murrah Federal Office Building in Oklahoma City. In April 
1995, two Americans, Timothy McVeigh and Terry Nichols conspired to 
detonate a powerful and sophisticated homemade bomb hidden in a truck 
parked outside the building. Their bomb killed 168 people, including 
children in a daycare center.
    Rapid police communication led to the holding of McVeigh, who had 
been apprehended immediately after the bombing on an unrelated traffic 
offense. Effective law enforcement agency coordination led to a 
powerful prosecution that resulted in the conviction of the two primary 
culprits. During the course of that investigation, however, the climate 
under which the Commission's mandate was framed changed dramatically.
    Federal agencies, fairly or unfairly, derided for poor performance 
at Ruby Ridge and Waco, were perceived to have performed with 
praiseworthy professionalism in Oklahoma City. Within minutes of the 
explosion, the building and the surrounding crime scene were secured. 
Within hours, a sketch of a suspect (drawn with sufficient accuracy to 
alert the local police officers who had arrested McVeigh) was in the 
hands of police forces around the county. Within a day, a vehicle 
identification number attached to a bit of a truck axle discovered a 
block from the explosion, led investigators to a local truck rental 
agency. And, within a week, a fairly complete picture of the recent 
comings and goings of McVeigh and Nichols was available--a picture 
tying McVeigh irrevocably to the barbarous act and to his jail cell. 
The Federal law enforcement system, illuminated in the glare of intense 
international publicity, had carried out is functions responsibly, 
professionally, credibly, and well.
    The success of investigators and other law enforcement personnel in 
apprehending and developing evidence against McVeigh and Nichols 
transformed public perceptions of Federal law enforcement and the 
perceived role for the Commission. Instead of serving as a vehicle for 
criticizing Federal law enforcement agencies, the Commission was now 
encouraged to examine strengths and weaknesses. The Commission's 
mandate, broad as it was, laid out the possibility of an investigation 
that recognizes that perfect performance, however much desired, is also 
well nigh impossible. The specifics of the Commission's charge and the 
larger issues in which they are embedded--issues of personal safety, 
freedom from unreasonable search and seizure, and protection against 
the threat of domestic and foreign terrorism--are compelling as law 
enforcement enters a new century and changing world.
                          central conclusions
    Because of the complexity of its charge, this Commission does not 
want its central conclusions obscured by the amount of detail in the 
document that follows. Based on a study that involved approximately 70 
witnesses, a comprehensive literature review, and a review of papers 
and surveys commissioned for its use, the Commission wishes to state 
its conclusions as directly and simply as possible. It believes that:

<bullet> Federal law enforcement agencies are among the finest in the 
        world and that most Americans share that view.
<bullet> Of necessity, the Federal law enforcement apparatus is large 
        and complex. Different agencies have different missions and 
        quite distinct areas of jurisdiction. Better coordination is 
        necessary and desirable, and some consolidation is required.
<bullet> The capacity for oversight and coordination is weak and needs 
        improvement. As a policy matter, it is difficult to know who is 
        in charge of what. With issues of citizen safety andnational 
security at stake, effective cooperation, greater clarity of roles and 
responsibilities, and agreement on uniform standards should not be left 
to chance.
<bullet> Law enforcement officers will confront vastly more 
        sophisticated and complex crimes in the 21st century than ever 
        before. The Federal law enforcement community must prepare for 
        this new reality.
                            recommendations
    Based on these conclusions, the Commission presents a five-part 
action agenda. Its recommendations emphasize the need for the President 
and Congress to:

    I. Make it clear that the Attorney General has broad coordinating 
authority for Federal law enforcement and for minimizing overlap and 
duplication.--The Commission recommends that the President and Congress 
improve the administration of Federal law enforcement, and its 
effectiveness, by making it clear that the Attorney General has broad 
authority for oversight and coordination and by minimizing overlap and 
duplication of agency functions.
    II. Provide the intelligence and information needed to combat 
terrorism.--The Commission recommends that the law enforcement and 
intelligence communities review their procedures and policies to ensure 
that the President, Congress, and the National Security Council have 
adequate resources to coordinate activities and to pursue the 
information that Federal, State, and local law enforcement agencies 
need to combat terrorism.
    III. Make global crime a national law enforcement priority.--The 
Commission recommends that the President and Congress expand the attack 
on global crime, narcotics trafficking, and cyber-crime with new 
determination and energy.
    IV. Reverse the trend toward federalization.--The Commission 
recommends that Congress and the President support a new 
``Federalization Prevention Act'' to minimize Federal intrusion into 
State and local law enforcement and reverse the recent trend toward 
``federalizing crime.''
    V. Focus on professionalism, integrity, and accountability.--The 
Commission recommends that the President and Congress require that 
Federal law enforcement agencies establish new standards for 
professionalism, integrity, and public accountability.
               toward a new century and a changing world
    This Commission believes that the Nation will face grave law 
enforcement challenges in the years ahead. Its five-part action agenda 
is designed to address those challenges. Members of the Commission 
believe that the public understands the need for these actions and will 
support policymakers as they work to put them in place. The Commission 
urges the Congress and the President to move forward with its agenda.
[GRAPHIC] [TIFF OMITTED] T2524A.001

[GRAPHIC] [TIFF OMITTED] T2524A.002

[GRAPHIC] [TIFF OMITTED] T2524A.003

[GRAPHIC] [TIFF OMITTED] T2524A.004

[GRAPHIC] [TIFF OMITTED] T2524A.005

[GRAPHIC] [TIFF OMITTED] T2524A.006

[GRAPHIC] [TIFF OMITTED] T2524A.007

[GRAPHIC] [TIFF OMITTED] T2524A.008

  ]President's Council on Integrity and Efficiency,
              Executive Council on Integrity and Efficiency
                                                     March 2, 2000.
Hon. Strom Thurmond, Chairman,
Subcommittee on Criminal Justice Oversight, Committee on the Judiciary, 
        U.S. Senate, Washington, DC.
    Dear Chairman Thurmond: Enclosed is the response from the 
President's Council on Integrity and Efficiency (PCIE) and the 
Executive Council on Integrity and Efficiency (ECIE) to the Commission 
on the Advancement of Federal Law Enforcement report, ``Law Enforcement 
in a New Century and a Changing World,'' presented at your hearing on 
February 3, 2000. We request that this response in its entirety be 
included in the record for this hearing as our official response to the 
Commission's report.
    The 1978 Inspector General Act and amendments established that the 
detection and prevention of fraud, waste, abuse, and wrongdoing in the 
Federal Government would be one of the highest priorities of the 
Offices of Inspector General. The Inspector General community has lived 
up to this responsibility. Over the last nine years, the community has 
achieved more than 122,000 successful criminal prosecutions and 
obtained over $13 billion in investigative recoveries. Our successful 
record in handling varied and complex criminal and civil cases and 
working with other law enforcement agencies speaks for itself.
    As discussed in the enclosed response, the Commission's report 
contained inaccuracies, unsupported statements, and conclusions that 
lack empirical data and factual findings. We are further troubled that 
the Commission did not provide an opportunity for the Inspector General 
community to present substantive information concerning our operations.
    Thank you for allowing the community to provide our views on the 
Commission report. We welcome the opportunity to further discuss our 
response or address other issues related to the Inspector General 
community.
            Sincerely,
                                     Gaston L. Gianni, Jr.,
                                                  Vice Chair, PCIE.
                                           Barry R. Snyder,
                                                  Vice Chair, ECIE.
    Enclosure.
                                 ______
                                 

 RESPONSE TO THE FINAL REPORT OF THE COMMISSION ON THE ADVANCEMENT OF 
   FEDERAL LAW ENFORCEMENT--``LAW ENFORCEMENT IN A NEW CENTURY AND A 
                            CHANGING WORLD''

                           Executive Summary
    The President's Council on Integrity and Efficiency (PCIE) and the 
Executive Council on Integrity and Efficiency (ECIE) categorically 
disagree with the recommendations of the Commission on the Advancement 
of Federal Law Enforcement (Commission), as they apply to the inspector 
general community. The Commission's observations, which are flawed and 
unsupported, suggest that law enforcement authority be removed from the 
Offices of Inspector General (OIGs) and assigned to other federal law 
enforcement agencies, such as the FBI and Customs Service. The 
Commission cites no objective evidence to support its sweeping 
recommendations with regard to the OIGs. Further, we are concerned that 
the members of the Commission were not sufficiently informed as to how 
OIGs actually operate, since the IG community was not consulted about 
the Commission's proposals or given the opportunity to provide the 
Commission with substantive information concerning our operations.
    In fact, an accurate and objective review of the record would 
reveal the following:

<bullet> OIG law enforcement operations have been highly successful in 
        producing tangible results, directly addressing the problems of 
        fraud, abuse, waste, and wrongdoing in federal programs. During 
        fiscal years 1991 through 1999, the PCIE and ECIE member 
        agencies achieved more than 122,000 successful criminal 
        prosecutions and obtained over $13 billion in investigative 
        recoveries. In addition, federal agencies took more than 19,000 
        personnel actions based on PCIE and ECIE investigations during 
        the same period.
<bullet> The Commission's recommendations directly conflict with 
        rationale of the Inspector General Act of 1978 and its 
        amendments. This legislation specifically assigned investigate 
        authority to the OIGs because investigations of fraud, waste, 
        and abuse conducted by ``traditional'' law enforcement agencies 
        were not effectively coordinated and did not contribute to 
        improved program management at the agency level.
<bullet> For over 20 years, the OIG law enforcement community, through 
        the PCIE and ECIE, has collectively undertaken aggressive 
        measures to foster high professional levels of training, work 
        quality and work standards. As a result, the PCIE and ECIE 
        members have developed a highly skilled and diverse workforce 
        of approximately 2,900 criminal investigators involved in 
        criminal and related civil cases nationwide.
<bullet> The OIGs are well established within the law enforcement 
        community. The IGs are as accountable to the Department of 
        Justice for their investigative efforts as every other federal 
        law enforcement entity. The Department has extended blanket 
        deputation to all PCIE-member OIGs, and supports legislation to 
        grant statutory law enforcement authority for those offices. 
        Both proposed statutory and existing law enforcement 
        authorities are exercised and monitored under procedures 
        developed by the Department of Justice.
<bullet> As Congress specifically recognized and assured when it passed 
        the Inspector General Act of 1978, no conflict of roles exists 
        among or between the audit, evaluation, and criminal 
        investigations components of the OIGs. The Commission's 
        supposition that such a conflict exists or could arise is 
        unsupported and incorrect. Placing investigators together with 
        auditors, analysts, and attorneys in the overall OIG 
        organization has generated a highly effective, synergistic 
        environment which has substantially improved their 
        effectiveness in dealing with white collar crime, and which 
        would be destroyed if law enforcement authority were to be 
        removed from the OIGs.
<bullet> The Commission's recommendations to remove law enforcement 
        authority from OIGs would not be practical to implement, or if 
        implemented would be detrimental to effective management of 
        federal programs. Among the problems likely to arise would be 
        severely limited information flow to agency heads and the 
        Congress on law enforcement issues, diminished coordination of 
        investigative activities within and across agency lines, and a 
        drastic loss of expertise about agency programs among law 
        enforcement personnel.

                              Introduction
    This white paper provides the responses of the President's Council 
on Integrity and Efficiency (PCIE) and the Executive Council and 
Integrity and Efficiency (ECIE) to the final report of the Commission 
on the Advancement of Federal Law Enforcement (Commission).
    The members of the PCIE and ECIE appreciate being afforded the 
opportunity to place their views on the record. For the purposes of 
this paper, we are limiting our remarks strictly to the Commission's 
comments and observations pertaining to the offices of inspector 
general (OIGs or IGs). As will be apparent, we differ pointedly with 
the Commission's conclusions about the role and organizational 
placement of the OIGs within the federal law enforcement community.
    The Commission's report contains a number of sweeping 
recommendations that would alter not only the fundamental conceptual 
underpinnings of the inspector general community, but also the way in 
which law enforcement services are made available to most federal 
agencies. However, it appears that the Commission reached its 
conclusions without objective evidence or empirical support for their 
opinions. While our disagreement with the Commission's report extends 
to essentially every aspect of their views about the inspectors 
general, we are focusing this paper on the five issues listed below, 
which we believe represent the principal thrust of the Commission's 
commentary:

          1. The Commission favors an ultimate configuration of the 
        federal law enforcement structure under which IG law 
        enforcement authority would be assigned to other agencies 
        (presumably the FBI), leaving the IGs to function as ``Auditors 
        General.''
          2. The proposed Interagency Advisory Board on Federal Law 
        Enforcement which the Commission recommends to be established 
        in the executive branch, should be ``directed to examine the 
        growth and role of the function of the Inspector General * * * 
        throughout the Federal Government and to consider the wisdom 
        and feasibility of consolidating these offices.''
          3. The Commission's report questions the ability of OIGs to 
        maintain appropriate professional standards, training, and 
        quality in its law enforcement activities.
          4. The Commission believes that the proliferation of so many 
        independent law enforcement entities makes it difficult to 
        achieve the level of coordination by the Department of Justice 
        contemplated under EO 11396 (February 1968). The Commission's 
        report makes repeated references to the IGs as the principal 
        source of such proliferation and, on page 47, offers the 
        observation that, ``to bring a more realistic frame of 
        reference to the discussion'' the number of federal agencies 
        with law enforcement authority could be readily reduced by 40 
        percent if the OIGs were to be consolidated into a single 
        entity.
          5. The Commission perceives there to be inherent conflicts 
        between the program review/evaluation role of the IGs and their 
        law enforcement role.

    This white paper will clearly show that the foregoing conclusions 
and observations are neither accurate nor justified by reference to the 
way in which the IG community implements its law enforcement 
authorities.
         The Inspector General Legislation Shapes the Role and 
                        Organization of the OIGs
    The changes in IG authorities contemplated by the Commission are in 
direct conflict with the rationale behind Inspector General Act of 1978 
(Act), its amendments, and the case law construing the legislation. 
While recommending, in effect, that twenty years of law and practice 
based on the IG Act should be reversed, the Commission made essentially 
no reference to the legislative underpinnings of the IG community. 
However, the role and organization of the OIGs are entirely derivative 
of the IG Act, and it is simply not possible to understand the IG 
concept without reference to the legislation. Therefore, as our 
starting point for setting the record straight we will explain the 
purposes of the Act and the shortcomings in the structure of federal 
law enforcement that it was designed to correct.
    The implicit language and legislative history of the Act make it 
clear that the Congress was addressing many of the concerns raised by 
the Commission's report, particularly with respect to coordination of 
law enforcement activities between the Department of Justice and other 
executive agencies. By creating inspectors general in each agency with 
independent investigative capabilities. Congress expected to remove 
conflicts of roles among and between agency components responsible for 
investigations of agency programs. By establishing investigative 
offices with expert knowledge of the programs and organizational 
structure of their respective agencies, Congress recognized that 
management's needs would be more effectively served than by drawing law 
enforcement services from another agency. This organizational structure 
would also realize the synergistic effects of having audit and 
investigative personnel working in concert on problems of fraud and 
abuse in agency programs.
    Congress repeatedly and explicitly stated its intent that the 
inspectors general be investigative officials. Each PCIE IG must, by 
law, appoint an Assistant Inspector General for Investigations, ``who 
shall have the responsibility for supervising investigative activities 
relating to [his/her agency's] programs and operations [IG Act, 5 
U.S.C. App. at section 3(d)(2)]. Further, Congress directed that it is 
the ``duty and responsibility'' of each Inspector General to ``conduct 
* * * audits and investigations relating to the programs and 
operations'' of their parent agency (emphasis added).
    The role of the inspectors general as criminal investigators has 
also been clearly and repeatedly recognized by federal courts. See, for 
example, U.S. v. Educational Development Network Corp., 884 F.2d 737, 
740-744 (3rd Cir. 1989) (recognizing anInspector General's authority to 
issue a subpoena in a criminal investigation); U.S. v. Aero Mayflower 
Transit Co., Inc., 831 F.2d 1142, 1145 (D.C. Cir. 1987) (recognizing 
both civil and criminal investigative authorities of the Inspectors 
General with coextensive subpoena powers); U.S. v. Medic House, Inc., 
736 F.Supp. 1531, 1537 (W.D. Mo. 1989) (enforcing a subpoena in a 
Medicare criminal fraud case, noting that the IG has ``express 
authority'' to conduct such cases).
   Excerpts From the Legislative History of the Inspector General Act
    A review of the legislative history of the Inspector General Act of 
1978 indicates that Congress considered many of the same issues of 
coordination and cooperation raised by the Commission, and designed the 
Act to alleviate them. In reporting the Act to the House, the 
Government Operations Committee acknowledged that Justice Department 
officials had testified that: ``with some exceptions, working 
relationship with other Federal departments and agencies on fraud 
matters (were) far from optimum. [They] also told the subcommittee that 
coordination would be easier if all agencies had a single high-level 
official devoting full time to overall direction of both audit and 
investigative activities.'' (House Report No. 95-584, pages 5-6, 1978)
    On this same issue, the corresponding Senate Report No. 95-1071 
states, at page 7, that the existence of an inspector general with both 
audit and investigative authority ``strengthens cooperation between the 
agency and the Department of Justice in investigating and prosecuting 
fraud cases. The Department [of Justice] testified emphatically that 
those agencies that have been the most effective co-partners * * * have 
been those with viable offices of Inspector General.'' As Deputy 
Assistant Attorney General Keeney testified, ``The combining of audit 
and investigation functions under an Inspector General in the 
respective departments and agencies virtually ensures that the 
performance of the agencies will improve.''
    During floor consideration in the Senate on September 22, 1978, of 
H.R. 8588, The Inspector General Act of 1978, Senator Eagleton 
discussed the rationale for calling the office ``Inspector General'' as 
opposed to the Senate-proposed ``Inspector and Auditor General.'' 
Senator Eagleton stated: ``It has an established, well-understand 
meaning. It conveys rather a multiplicity of functions, including 
audit, investigations, inspection review of legislation and the 
formulation and coordination of all policies to promote efficiency and 
economy in Government and prevent and detect fraud, abuse and waste. 
The change of name signals no reduction in my determination and the 
committee's that the audit function play an essential role in the work 
of the new Inspectors General. One hundred investigators operating on 
their own can accomplish comparatively little when dealing with 
multibillion-dollar programs. One hundred investigators operating in 
connection with several hundred authors can become a vital force to 
combat fraud, abuse, and waste in agency operations and programs, and 
to promote economy and efficiency generally.'' (Congressional Record, 
September 22, 1978, page S30954)
    On the question of possible conflicts between audit and 
investigative roles, the Senate Report indicated that: ``the 
legislation gives * * * no conflicting policy responsibilities * * * 
sole responsibility is to coordinate auditing and investigating efforts 
and other policy initiatives designed to promote economy, efficiency 
and effectiveness of the programs of the establishment.''
    On the Senate floor, Senator Eagleton further discussed the 
statutory provision for separate offices for audit and investigations: 
``The second amendment restores a provision which the committee deleted 
from the House version of H.R. 8588. The House-passed bill provided 
that each Office of Inspector General would have an Assistant Inspector 
General for Audit and an Assistant Inspector General for Investigation. 
The committee believed that while most Inspectors General would 
organize their offices with separate assistants in charge of audit and 
investigation, such a requirement should not be statutorily mandated. 
Both the House and Senate committees, however, agreed that the offices 
would operate more effectively if the separation between audit and 
investigation was statutorily delineated and I have no reluctance to 
adopt the House approach.'' (Congressional Record, September 22, 1978, 
S30954)
    Further, Representative Fountain stated that enactment of this 
legislation would: ``help to coordinate, within each agency and 
throughout the Government, the work of numerous audit and investigative 
units which are now disorganized and without effective leadership.'' 
(Congressional Record September 27, 1978, H32033)
    As will be shown in the remainder of this paper, stripping the IGs 
of investigative authority would return agencies to the situation, 
which existed before passage of the IG Act. Although the Commission 
does not address these facts, the record clearly demonstrates that, in 
the pre-IG period, law enforcement efforts within agencies often 
operated at cross-purposes and the means of addressing fraud, waste, 
abuse, and wrongdoing were uncoordinated either within and across 
agency lines. These unsatisfactory situations--precisely those which 
the Commission wishes to avoid--were resolved by the IG Act, but could 
recur if the history of the Act and the accomplishments of the IG 
community under the IG legislation are ignored.
     Achievements of the Inspector General Law Enforcement Community
    The IG Act of 1978 was passed by nearly unanimous votes in both 
houses of Congress, despite the fact that the (Carter) Administration 
opposed the measure, and nearly every agency called to testify about it 
recommended that IGs not be provided statutory authorities. Now, over 
twenty years later, offices of inspector general with full statutory 
powers are in place in essential every federal agency. They are 
mainstays of the effort to address criminal activity in federal 
programs. Congress has maintained continuous oversight of the IGs, and 
on several occasions, with strong support of several Administrations, 
has expanded both the number of IG offices and their authorities. 
Although the Commission chooses to view this as a ``startling'' 
proliferation of small law enforcement agencies, we would suggest that 
it is more accurately depicted as demonstrating how the success of the 
IG concept has justified its being expanded and strengthened.
    Further, the IG law enforcement entities have compiled an 
outstanding record of tangible accomplishments. While success cannot be 
measured solely by outputs, the numbers below unambiguously indicate 
that (1) IG law enforcement entities are producing substantial results 
in their present organizational configuration and, (2) the issues they 
address--fraud, abuse, and wrongdoing in federal programs--represent 
significant and serious problems that warrant focused and specialized 
law enforcement attention.

  SELECTED INVESTIGATIVE OUTPUTS, PCIE AND ECIE MEMBER ORGANIZATIONS FY
                              1991-FY 1999
------------------------------------------------------------------------
              Output Measure                           Results
------------------------------------------------------------------------
Investigative Recoveries..................               $13,025,606,341
Successful Prosecutions...................                       122,774
Personnel Actions.........................                        19,359
------------------------------------------------------------------------
Notes: (1) Source of date is PCIE/ECIE Progress Reports to the
  President, FY 1991-1999. (2) Numbers have been edited wherever
  possible to remove duplicative or overlapping reports resulting from
  joint activities. (3) Includes results reported by the Chief Postal
  Inspector as a member of the ECIE, 1991-1996, and by the Office of
  Inspector General, U.S. Postal Service, 1997-1999. (4) Reporting
  period 1991-1999 was selected to reflect uniform reporting standards
  which came into use in 1991.


    In contrast, the Commission report adduced no evidence--either 
statistical or anecdotal--to suggest that the IGs have not been 
effective, or that law enforcement within federal agencies would 
improve if authorities were to be stripped from the IGs and placed in 
the FBI or other agencies. The Commission's authoritive iteration of 
its position regarding IG law enforcement authorities appears as the 
following unsupported statement of opinion, on page 116 of its final 
report: ``The Commission believes that to the extent Inspectors General 
are involved in law enforcement operations the cooperation of existing 
law enforcement officials from agencies such as Customs and the FBI to 
work with OIG officials is a better route than creating separate law 
enforcement entities within OIGs.''
        International Coordination and Law Enforcement Quality 
                          in the IG Community
    The Commission report makes repeated and generalized observations 
to the effect that ``small'' law enforcement agencies (a category in 
which the Commission clearly includes the (IGs) find it difficult to 
maintain adequate standards of training, quality control, and 
professionalism. The underlying assumption of these comments appears to 
be that quality and professionalism are directly proportional to the 
size of a law enforcement agency.
    We find the Commission's analysis to be oversimplified and its 
assumptions erroneous as applied to the IG community. Virtually since 
their inception under the 1978 IG Act, the IG law enforcement entities 
have worked closely with each other and with other agencies to assure 
the quality of their work and the professionalism of their personnel. 
As the results of these efforts, law enforcement with the OIGs has 
evolved into a community of over 2,900 well-trained criminal 
investigators whose primary thrust involves federal criminal or related 
civil cases, often worked in conjunction with the ``traditional'' 
agencies such as the FBI, U.S. Secret Service, ATF, DEA, and Customs, 
as well as state and local law enforcement bodies. Many of the OIG 
cases involve specialized areas of investigation where the other 
agencies defer to the expert knowledge of the IG special agents. Rather 
than discounting ``small'' law enforcement agencies out of hand as 
being doomed to professional inferiority, we would suggest that the IG 
community's collective activities represent a standard on which other 
agencies can model their own efforts to assure that they observe the 
highest levels of training, quality, and professionalism.
    Within the IG community, the PCIE and ECIE have taken the lead in 
ensuring professional quality criminal investigations. These efforts 
have been coordinated through the PCIE/ECIE Investigations Committee, 
which is comprised of IGs from representative agencies who have been 
active in various aspects of law enforcement and the Director, Office 
of Government Ethics. The chair of the committee has traditionally been 
an Inspector General with diverse federal law enforcement experience.
    The Investigations Committee has produced several documents that 
have provided guidance to the community on professional law enforcement 
standards. Arguably, the most important is the revised ``Quality 
Standards for Investigations.'' This publication includes individual 
investigator standards for qualifications, independence, and due 
professional care. It also establishes cases management standards in 
planning, execution, reporting and information management. The 
standards recommend each criminal investigator have professional 
training adequate to conduct criminal investigations at the federal 
level and that special agents also be involved in professional 
developmentprograms providing increased knowledge levels as the 
investigators advance through their career.
    Two other publications of particular note developed through the 
Investigations Committee are a ``best practices'' document and a 
government-wide publication entitled ''OIG Investigations and You.'' In 
1998, a working group of Assistant Inspectors General for 
Investigations (AIGIs) developed model guidance for all OIGs in 
operational practices within law enforcement agencies. These included 
training standards, types, use and care of weapons, use of deadly 
force, investigative practices, civil liberties, and record keeping. 
The working group suggested minimum training standards that required 
every criminal investigator complete training from the Federal Law 
Enforcement Training Center (FLETC), the FBI Academy, or other 
comparable basic training program. ``OIG Investigations and You'' was 
prepared by the Investigations Committee as an electronic document that 
could be distributed to the entire federal workforce. This pamphlet 
explains the rights and responsibilities of federal employees when they 
are involved in an OIG investigation.
    Another critical role of the Investigations Committee is oversight 
of the Inspector General Criminal Investigator Academy (IGCIA) located 
in Glynco, Georgia. Serving as the board of directors for the IGCIA, 
the committee has worked closely with FLETC officials and the community 
to develop a professional training program for IG special agents that 
meets recommended standards for federal investigators. In the past 
year, the IGCIA was dramatically increased in size to better meet the 
training needs of the OIG community. The IGCIA provides criminal 
investigator training for IG special agents as the designated follow-up 
to the FLETC Criminal Investigator Basic program. The IGCIA also 
conducts follow-up training in areas of investigations deemed critical 
to meet DOJ and community standards. Advanced training is also provided 
to meet special training needs as individuals continue through their 
career.
    Closely related to this effort, the IG community has actively 
participated in the operations of FLETC, including representation on 
the FLETC Board of Directors, curriculum development committees, and 
other development programs. Special agents from the PCIE and ECIE 
agencies participate in classes at FLETC, and occasionally, on an as-
needed basis, at the FBI Academy and other accredited training 
facilities.
    Though the Investigations Committee remains the central focal point 
for investigative issues, there are other activities within the 
community that have influenced the development of community-wide 
professional law enforcement operations. These include the coordination 
of joint OIG investigations, establishment of quality assurance 
programs in every OIG, participation in multi-agency task forces, and 
legal coordination.
    Every OIG has established quality assurance safeguards within its 
investigative program. These address the need for maintaining the 
highest quality of professional operations. Most of these reviews are 
based upon the standards established in ``Quality Standards for 
Investigations.''
               Coordination by the Department of Justice
    The Commission's assertions that proliferation of OIGs and other 
``small'' law enforcement agencies undermines the overall direction of 
federal law enforcement efforts and makes coordination by the 
Department of Justice (DOJ) difficult are not reflected in actual 
practice. The IGs are as accountable for their actions as any other law 
enforcement agency, and, because of the semiannual requirements, must 
provide a public record of their principal activities on a regular and 
continuing basis. Every IG has a continuing relationship with 
congressional oversight committees and, because of their audit role, 
with the General Accounting Office (GAO). Every IG holds membership on 
either the PCIE or ECIE, which are chaired by the Office of Management 
and Budget and exist precisely for the purposes of assuring that the 
IGs efforts are appropriately coordinated within the Executive Branch 
and that important government-wide problems are addressed.
    On a case-by-case basis, Assistant United States Attorneys direct 
most federal law enforcement efforts by making prosecutorial decisions 
in their respective districts concerning issuance of indictments, 
empanelling grand juries, use of grand jury subpoenas, and the approval 
of surveillance, undercover operations and other investigative 
techniques. IG criminal investigators are subject to all of the 
Department of Justice standards, guidelines, and control associated 
with these activities. Through this process, DOJ and the United States 
Attorney's Offices provide oversight as well as guidance to the OIGs. 
With few exceptions, the United States Attorneys have embraced and 
commended the investigative services they have received from the OIGs, 
recognizing both the investigative abilities of OIG agents and the 
expertise that these agents possess with respect to specific agency 
programs.
    In addition, the Department of Justice has supported OIG inclusion 
in special task force operations, which are being used more frequently. 
These task forces cover the range of federal investigations in areas 
such as welfare and Medicare fraud, health care fraud, organized crime, 
drug trafficking, border and immigration integrity, multi-objective 
projects such as Operation Safe Homes and Operation Talon, and other 
high profile criminal investigative initiatives involving the programs 
of every federal agency. Not only are special agents from OIGs included 
in these task forces, they are considered full partners, often taking 
lead roles in critical aspects of an investigation. These partnerships 
in most cases include, among other, the FBI, Secret Service, DEA, ATF 
and/or Customs.
    While the IG Act of 1978 did not explicitly provide a full range of 
criminal law enforcement authorities, because of the proven success and 
professionalism of the IG law enforcement community, such authorities 
have become available progressively as the OIGs have evolved. For many 
years, the only method by which full law enforcement authority was 
extended to most OIG investigators was for the DOJ to authorize 
deputation to each individual on a case-by-case basis. However, at this 
time, blanket deputation for IG special agents is provided through 
memoranda of understanding (MOU) between DOJ and the respective OIGs. 
As a further step, DOJ now supportslegislation to grant statutory law 
enforcement authority (to include uniform qualification and related 
standards) for all OIGs in the PCIE.
    Deputation agreements mandate uniform standards for completing 
basic and continuing special agent training, including regular criminal 
and civil legal updates, and for conducting criminal investigations. It 
also requires coordination and procedural adherence to DOJ standards. 
The present blanket authorities through the MOUs also require reporting 
and DOJ oversight of IG investigative operations. The net result is 
observance of professional standards throughout the IG community that 
meet all the requirements of the DOJ.
    Further, the inspectors general have MOUs with the FBI and other 
federal law enforcement agencies to ensure coordination. This has 
resulted in a working relationship that ensures that all aspects of 
federal law enforcement work closely together. It also means that 
overlapping or conflicting investigations are less apt to happen. Some 
of these agreements have been in place since the establishment of the 
first IGs in 1978.
    Clearly, the existence of law enforcement components within 
individual OIGs has strengthened rather than undermined federal law 
enforcement efforts. Even if ``traditional law enforcement'' moves in 
the direction envisioned by the Commission, to combat globalized crime, 
more sophisticated narcotics trafficking, and terrorism, the need to 
address crime in government programs will continue to exist. Although 
the Commission does not appear to make the connection, we note the 
finding in their own survey of attitudes toward crime (discussed on 
page 30 of the Commission's final report) that ``white collar fraud,'' 
which is the principal focus of IG law enforcement, elicits a high 
level of public concern, equivalent to carjacking and organized crime. 
Thus, instead of conflicting or overlapping, the continued presence of 
strong IG law enforcement authorities remains essential to ensuring 
that the priorities of Congress and the American public are 
implemented.
               Working Together--Synergy Without Conflict
    As quoted above from the IG Act's legislative history, in 
fashioning the IG legislation, Congress very intentionally did not 
choose to isolate the law enforcement personnel who would be 
investigating agency programs within an organization devoted solely to 
criminal law enforcement. As anticipated, the investigative role of the 
IGs has been greatly improved by the close working relationships among 
the investigators, auditors, attorneys, and evaluators who comprise IG 
staffs. Indeed, skilled analysis by auditors of complex financial 
transactions involved in white collar fraud schemes has become a 
cornerstone of efficient investigation and prosecution of those crimes. 
Implementing the Commission's recommendation to remove law enforcement 
authority from the IGs would sever this collaboration by removing the 
investigators, with their specialized experience and expertise, from 
the agencies in which they are located. There is no historical, 
anecdotal, or statistical evidence of which we are aware, or which is 
offered by the Commission, to support the upheaval their recommendation 
would cause.
      Removing Law Enforcement Authority Would Disrupt Important 
             Contributions to Management of Agency Programs
    The foregoing sections of this white paper demonstrate that the IG 
offices, as presently constituted, have met and exceeded all of the 
expectations which Congress associated with the IG Act. Further, the 
IGs have been operationally effective, and have implemented and 
observed very high standards of quality, training, and professionalism. 
In the absence of any information or analysis by the Commission to 
buttress its viewpoint, these factors alone provide convincing support 
for maintaining IG law enforcement authorities.
    There is, however, yet another serious shortcoming of the 
Commission's report. Although the Commission purported to address only 
law enforcement concerns, in fact it undertook to make recommendations 
about the structure, function, and role of parts of nearly every 
federal agency. And those parts--the OIGs--themselves have the 
authority to affect essentially every program in their respective 
agencies. Therefore, an assessment of the Commission's report cannot 
focus simply on law enforcement in isolation, but must consider the 
potential impact of its comments and recommendations on the full range 
of management challenges facing federal agencies.
    By this standard, we conclude that actual implementation of the 
Commission's recommendations about the IG community would either 
generate results contrary to their expressed purpose or would create 
management problems more serious than the law enforcement problems the 
Commission discusses. Specifically, if law enforcement authority were 
to be removed from the OIGs in keeping with the Commission's 
recommendations, we believe the following three management problems 
would quickly ensue. Ironically, Congress recognized in 1978 that the 
absence of law enforcement at the agency level generated precisely 
these problems, and they addressed all of them in the IG Act.
 a. information flow to congress and the agency heads would be reduced
    The Inspector General Act establishes an information flow that is 
unique among federal law enforcement agencies. The IGs ultimately 
report their findings to and through the agency head. At the same time, 
the mechanism of the IG semiannual reports assures that information on 
the IGs most significant results, accomplishments, and problems is 
provided to Congress. The ``seven-day letter'' provision, although 
seldom used, provides an independent ``fast track'' channel for the IG 
to bring exceptionally serious problems to Congress' attention on an 
urgent basis.
    All of these provisions were in direct response to (1) the obvious 
void of information flow among the traditional law enforcement 
agencies, federal agencies whose programs or personnel were being 
investigated, and Congress, and (2) the limitations of thecase-by-case 
approach taken by the traditional law enforcement agencies as a means 
of developing useful information for the program management or 
legislative perspective. The IG Act requirement that the agency head 
forward the IG report to Congress, with his comments, assures both that 
agency management considers and addresses the IGs' reports and that 
Congress receives the benefit of management input, as well as the IGs, 
on significant problems.
    The current reporting system fills the essential needs of both 
agency management and Congress for continuing and reliable information 
about problems that warrant their attention and action. However, 
adopting the Commission's recommendations for removing law enforcement 
authority from the IGs would re-create the former information void. 
Outside law enforcement agencies would have no responsibility to report 
to agency heads or Congress, and the connection between investigative 
results and program operations--the essence of the IG Act reporting 
system--would be lost.
   b. the igs' positive contribution to effective program management 
                           would be dismissed
    From the inception of the statutory inspectors general, both 
Congress and the agencies have understood them to be more than simply 
audit and law enforcement organizations superimposed on existing agency 
structures. In fact, the premise of the IG concept is that it would 
improve the management of federal programs by identifying and rooting 
out fraud, abuse, waste, inefficiency, and wrongdoing. To consider IGs 
strictly as law enforcement entities is to ignore their larger, 
underlying purpose.
    Placement of the IGs, and their associated law enforcement 
authorities, within the agency, gives the agency head more control of 
his programs than if the law enforcement personnel serving the agency 
were from another agency. On page 58 of its final report, the 
Commission states that: ``[T]he independence of OIGs as mandated by 
Congress from program operations and from management within a 
department can become a future problem area without coordination and 
oversight of IG action.''
    But in fact, this statement is not only unsupported by any 
objective information in the Commission's report, it is inherently 
illogical as support for removing law enforcement authority from IGs 
and placing it in another law enforcement agency. As the IG Act 
unambiguously recognized, an agency is far better able to coordinate, 
and benefit from, law enforcement activities undertaken by its IG than 
it would the activities of the FBI if law enforcement authority were 
removed from the IG and placed with the FBI.
    The proximity and visibility of OIG agents within an agency bestows 
several tangible advantages for the integrity of the agency's programs. 
First, an official with concerns about fraud in his programs will be 
far more likely to contact an OIG agent in the office next door than to 
call a ``centralized law enforcement entity.'' Further, the presence of 
an OIG with law enforcement capabilities generates a deterrent effect. 
Many OIGs conduct fraud awareness and outreach programs. In fact, such 
proactive efforts are mandated in the IG Act, which speaks of the 
``preventing'' as well as ``detecting'' fraud, waste, abuse, and 
mismanagement. The effectiveness and feasibility of outreach activities 
are tied directly to their applicability to specific situations found 
in the agency. A centralized law enforcement agency would likely find 
it difficult to mount efforts which are relevant across the board.
    The Commission's quotation of a National Performance Review 
comment, which is taken out of context, to the effect that some agency 
personnel consider IG personnel to be high-handed, is utterly 
misleading. It was not a conclusion of that report, but a statement by 
an anonymous government official. Any law enforcement organization may 
be considered threatening or coercive by persons who are subject to its 
authority; in fact, federal employees may be compelled to provide 
information to IGs and all other federal law enforcement agencies, to 
the extent that such disclosures do not violate their constitutional 
rights. The fact that some nameless persons may hold a certain opinion 
of IG staff does not support the point that it is inappropriate for law 
enforcement authority to reside in the IGs.
 c. law enforcement efforts would suffer from the loss of specialized 
                      knowledge of agency programs
    We strongly disagree with the Commission's premise that the IG 
community is outside the ``mainstream'' of federal law enforcement. In 
fact, over 20 years of expertise in addressing criminal violations 
particular to the agencies they serve has actually placed the IG 
criminal investigative components in a better position to service the 
law enforcement needs of their agencies than a ``generalist'' law 
enforcement entity. To suggest, as the Commission seems to do, that a 
general federal law enforcement agent could be conversant in the 
intricacies of Medicare fraud, oil and gas royalty fraud, and passport 
and visa fraud is simply not reasonable. Further, OIG special agents 
not only have expertise germane to their own agency, but also on the 
way common frauds are prepetrated in the agency context. For example, 
while OIGs in all agencies may investigate procurement fraud, procuring 
services to construct an embassy overseas is vastly different from 
procuring a cleanup of a wetland endangered by an oil spill. Simply 
knowing the Federal Acquisition Regulations is not enough--to be truly 
effective, one needs to know how it is applied within the specific 
agency.
    Many of the trends noted the Commission report itself as to the 
increasing sophistication and organization of criminal behavior mean 
that the need has increased for federal law enforcement personnel to 
``specialize'' and become truly expert about what they are doing. 
Congress has recognized this by heightening the responsibilities of 
various IGs to fight fraud. One among many examples is the Health 
Insurance Portability and Accountability Act of 1996 (HIPAA), which 
established the Health Care Fraud and Abuse Control Program, 
administered jointly by the Attorney General and the Department of 
Health and Human Services (HHS), acting through the HHS Inspector 
General [see 42 U.S.C. 1230a-7c(a)(1)]. The HHS IG receives mandatory 
funding from the Medicare trust funds to support intensified efforts 
against fraud and abuse in theMedicare/Medicaid programs. Using its new 
authority and resources, in three years since passage of HIPAA, the HHS 
IG has achieved a 139 percent increase in criminal convictions in 
health care cases, a 111 percent increase in health care administrative 
sanctions, and a 51 percent increase in fines, penalties, restitution, 
and multiple damages in health care investigations over the combined 
total amount for the prior 10 years.
    In this regard, government program needs warrant the same highly 
directed and expert attention as the problems of terrorism, 
international narcotics trafficking, and global crime identified by the 
Commission's report. Further, much as ``specialized'' law enforcement 
personnel may not be aware how to address terrorism, efforts to combat 
fraud in government programs will not be well-served by a 
``generalist'' law enforcement entity that needs to learn the 
intricacies of the victimized program before it can develop an 
investigative plan to deal with the criminal. Although the Commission 
may hold the opinion that it is ``better'' to provide law enforcement 
services from large ``generalist'' agencies than from smaller 
``specialist'' entities, it offers no evidence to indicate the need for 
one excludes or replaces the need for the other.
                                 ______
                                 
                             President's Council on
                                  Integrity and Efficiency,
                                                  February 4, 2000.
Hon. Strom Thurmond, Chairman,
Subcommittee on Criminal Oversight, Committee on the Judiciary, U.S. 
        Senate, Washington, DC.
    Dear Mr. Chairman: As Chairman of the Investigations Committee of 
the President's Council on Integrity and Efficiency, I want to register 
my strong opposition to the conclusion reached by the Commission on the 
Advancement of Federal Law Enforcement concerning the investigative 
authority of Inspectors General. On page 116 of its report, ``Law 
Enforcement in a New Century and a Changing World,'' the Commission 
recommends: ``* * * the function of the Office of the Inspector General 
should be to act as an Auditor General, not as a law enforcement 
entity.''
    We do not duplicate other law enforcement agencies. We coordinate 
and work closely with the Attorney General and the U.S. Attorneys to 
enhance their ability to investigate and prosecute fraud in our 
respective agency programs.
    The hallmark of our existence is independence from political 
pressure and objectivity in finding fact. We are a justifiably proud 
community of office of inspectors general because of our 
accomplishments. Our law enforcement agents are traditionally and 
extensively training in all aspects of criminal law enforcement. They 
are professional in every sense of the word and possess the integrity 
and accountability necessary to ensure productive law enforcement.
    I request to have this letter placed in the record of the Committee 
Hearing of February 3, 2000 on this report and the opportunity to meet 
with you to discuss the specifics of why the report is erroneous with 
respect to these matters. Please feel free to call me at (202) 606-
1200.
            Sincerely,
                                        Joseph R. Williams,
                                         (For Patrick E. McFarland,
                                  Chair, Investigations Committee).
[GRAPHIC] [TIFF OMITTED] T2524A.009

[GRAPHIC] [TIFF OMITTED] T2524A.010

[GRAPHIC] [TIFF OMITTED] T2524A.011

[GRAPHIC] [TIFF OMITTED] T2524A.012

[GRAPHIC] [TIFF OMITTED] T2524A.013

</pre></body></html>
